DoDIG-2012-025                             November 21, 2011




    DEPUTY INSPECTOR GENERAL FOR INTELLIGENCE
        AND SPECIAL PROGRAM ASSESSMENTS



       Review of Matters Related to the Office of the
       Assistant Secretary of Defense (Public Affairs)
        Retired Military Analyst Outreach Activities
Additional Information
The Department of Defense Office of the Inspector General prepared this report. If you have
questions, contact the signer of the report.




Acronyms and Abbreviations

ASD (PA)               Assistant Secretary of Defense (Public Affairs)
DODD                   Department of Defense Directive
DODI                   Department of Defense Instruction
DOD IG                 Department of Defense Inspector General
GAO                    Government Accountability Office
INSCOM                 U.S. Army Intelligence and Security Command
OASD (PA)              Office of the Assistant Secretary of Defense (Public Affairs)
PARA                   Public Affairs Research and Analysis
RMA                    Retired Military Analyst
=    '
                                         INSPECTOR GENERAL
                                          DEPARTMENT OF DEFENSE
                                          4800 MARK CENTER DRIVE
                                       ALEXANDRIA, VIRGINIA 22350-1500




                                                                                   November 21 , 2011


    MEMORANDUM FOR ASSISTANT SECRETARY OF DEFENSE
                    (PUBLIC AFFAIRS)

    SUBJECT: Review of Matters Related to the Office of the Assistant Secretary of
            Defense (Public Affairs) Retired Military Analyst Outreach Activities
             (Report No. OoOIG-2012-25)

           We are providing this report for your use and comment.

             The report responds to Congressional concerns on issues raised in the New York Times
    article, '·Behind TV Analysts, Pentagon's Hidden Hand.'" We found the office of the Assistant
    Secretary of Defense (Public Affairs) complied with relevant DOD policies and directives in its
    Retired Military Analyst outreach activities. However, OASD (PA) should have a plan or
    guidance for activities such as the RMA outreach activities that clarifies the purpose of the
    specific group, who will be part of a group, the criteria for who will be invited or not to
    particular events, and what type of information (such as classified) will be provided based on the
    purpose of the group. Such a plan or guidance will provide more clarity and transparency for
    future such programs and may avoid potential misunderstandings.

            In response to a draft of this report, the Principal Deputy Assistant Secretary of Defense
    for Public Affairs concurred with the report findings and recommendation. However, the
    proposed actions were only partially responsive to the recommendation. Please provide
    additional comments by January 9, 20 12 to include proposed action and estimated completion
    date.

           We appreciate the courtesies extend~ease direct questions to me at i1.Qll
    882-       You can also direct questions to -               !!ll.Q.3 ) 604~ 664-
    or to Mr. John Perryman, Director of Oversight at (703) 604--      (DSN 664-




                                            .___P.a-t~J':~. ~t£~~
                                                  Deputy Inspector General
                                                    Intelligence and Special Program
                                                    Assessments
DODIG-2012-025




TABLE OF CONTENTS

INTRODUCTION AND SUMMARY..................................................................... 1

    Review Results .................................................................................................... 2
    Conclusion .......................................................................................................... 4
    Recommendation…..…………………………………………………………………..4
    Management Comments and Our Response…..………………………………...5

BACKGROUND ...................................................................................................... 6

SCOPE AND METHODOLOGY ............................................................................ 8

FINDINGS AND ANALYSIS ............................................................................... 11

    A. Did the RMA Outreach Activities Comply with Policy
        and Requirements? ...................................................................................... 11
    B. Did RMAs Have Defense Contractor Affiliations,
       and If So, Did They Benefit Financially From Participation
       in the RMA Outreach Activities? ................................................................ 31

CONCLUSIONS ................................................................................................ .. 33

RECOMMENDATION ..................................................................................... .. 35

MANAGEMENT COMMENTS AND OUR RESPONSE……………………………. 35

APPENDICES

    Appendix A . Examples of Outreach Groups .................................................. 37
    Appendix B. Relevant Policy and Requirements ............................................. 38
    Appendix C. Participating RMAs .................................................................... 52
    Appendix D. Senior DOD Staff Involved in RMA Outreach .......................... 56

ASSISTANT SECRETARY OF DEFENSE (PUBLIC AFFAIRS)
COMMENTS ..................................................................................................... .. 59
DODIG-2012-025
DODIG-2012-025




               Review of Matters Related to the
               Office of the Assistant Secretary of
               Defense (Public Affairs) Retired Military
               Analyst Outreach Activities

INTRODUCTION AND SUMMARY
Beginning in April 2008, the Secretary of Defense and the Inspector General, Department of
Defense (DOD IG) received letters from numerous members of Congress requesting inquiries
into the issues raised in an April 20, 2008, New York Times article, ―Behind TV Analysts,
Pentagon‘s Hidden Hand.‖ Members of Congress also requested concurrent inquiries from the
Comptroller General, Government Accountability Office (GAO), and the Federal
Communications Commission for (1) a legal opinion on whether DOD violated laws related to
propaganda, and (2) an opinion on whether the military analysts received valuable consideration
and did not disclose the origin or source of the information broadcast, respectively. Congress
included the requirements for GAO and DOD IG inquiries in Public Law 110-417, Duncan
Hunter National Defense Authorization Act for FY 2009, October 14, 2008.

In response to congressional requests and Public Law, we conducted a review and issued DOD
IG Report IE-2009-004, ―Examination of Allegations Involving DOD Office of Public Affairs
Outreach Program,‖ dated January 14, 2009. However, following subsequent questions and an
internal quality review, the DOD IG withdrew the report.

To address the congressional concerns, we initiated this reevaluation in August 2009 focusing on
the following questions:

        Did the Office of the Assistant Secretary of Defense for Public Affairs (OASD (PA))
        outreach activities for Retired Military Analysts (RMA) comply with policies,
        procedures and requirements? Were the activities reviewed, approved and executed in
        accordance with the guidelines?
        Did RMAs have access to high-level officials, travel events, and classified information
        not available to others? If so, did the access comply with legal and policy
        requirements?
        Did RMAs have Defense contractor affiliations? If so, did participation in the RMA
        outreach activities benefit them financially as it relates to the contractor affiliation?
DODIG-2012-025


In its legal opinion (B-316443, July 21, 2009)1, GAO concluded ―. . . these [RMA Outreach]
activities did not violate the publicity or propaganda prohibition.‖ Accordingly, our re-
evaluation did not address whether OASD (PA) used RMAs as surrogates to deliver propaganda
messages to the American public.

Review Results
For many years, the Community Outreach Program operated ―. . . to increase public awareness
and understanding of DOD and the individual Military Departments, including their missions,
activities, policies, and requirements. . . .‖ Over time, the program involved many groups such
as religious leaders, business leaders, and civilian Defense experts. OASD (PA) added RMA
outreach activities in 2002. They continued until February 2008.

We reviewed over 25,000 classified and unclassified documents that OASD (PA) officials
generated or processed in administering RMA outreach. We also interviewed 63 of 74 RMAs
who participated in the events, and 65 current or former DOD officials and employees involved
in the activities. The former senior leaders interviewed included the Secretary of Defense,
two Assistant Secretaries of Defense (Public Affairs), an acting Assistant Secretary of Defense
(Public Affairs), a Principal Deputy Assistant Secretary of Defense (Public Affairs), the DOD
General Counsel, and the DOD Principal Deputy General Counsel.

Compliance with Policy and Requirements
The OASD (PA) intended to share DOD information with RMAs who could share the
information with their audiences. The activities were generally implemented and administered in
accordance with DODD 5122.5, ―Assistant Secretary of Defense for Public Affairs (ASD
(PA)),‖ September 27, 2000, and DODD 5410.18, ―Public Affairs Community Relations Policy,‖
November 20, 2001,2 to increase public awareness and understanding of the DOD and individual
Military Departments. Specifically, we found:

    Selection for and Removal from RMA Participation
    OASD (PA) had no specific criteria or guidelines as to who was included in the RMA
    outreach activities, invited to specific events, or removed from the RMA outreach activities.
    A preponderance of evidence indicates that one RMA stopped receiving invitations because
    he was a critic. However, with that exception, we did not find that OASD (PA) stopped
    inviting RMAs to events because OASD (PA) disagreed with what RMAs said.

    Talking Points
    OASD (PA) gave out documents described as talking points to RMAs in several venues.
    Based on our review, we found that the talking points were prepared for a larger audience
    that included RMAs and were designed to provide publicly-available information in concise
    format.


1
  Opinion B-3164343, Subject: Department of Defense - Retired Military Officers as Media Analysts,
July 21, 2009
2
  DOD Directive 5410.18 was certified current as of May 30, 2007.

                                                       2
DODIG-2012-025


   White House Influence
   Our review identified two communications where White House personnel received
   information related to RMA outreach activities. The communications did not involve
   influence or interference by the White House regarding RMA outreach activities.

   Media Analysis
   OASD (PA) was not prohibited from engaging in information gathering and related
   activities, including media analysis, to further its interests in keeping the public informed
   about DOD activities. In 2004, OASD (PA) began using ―media analysis‖ provisions in
   contracts with Omnitec Solutions, Inc. to obtain reports summarizing RMA commentary
   following an individual RMA event, or after multiple events such as all RMA travel events to
   Iraq during 2005. Our review did not produce information indicating that a DOD official
   took favorable or unfavorable action involving a RMA based on the media analysis.

   Receipt of Classified Information
   Guantanamo Bay Detention Facility personnel provided RMAs, who had security clearances,
   with classified briefings and allowed them to observe classified operations during the first
   two travel events to Guantanamo Bay. A former Deputy ASD (PA) stopped the practice on
   or about September 29, 2005, because it was inconsistent with the intent of the RMA
   outreach activities. We did not address whether RMAs with security clearances had a need
   to know, as that decision was the responsibility of the Commander, Joint Task Force
   Guantanamo, and outside our review scope.

   OASD (PA) Sponsored Travel
   OASD (PA) sponsored 11 travel events: 5 to Iraq and 6 to the Guantanamo Bay Detention
   Facility. Approximately 31 RMAs participated in these trips. We identified that travel
   authorized for RMAs participating in the travel events complied with statutory and policy
   requirements. The efforts supported the outreach mission and the travel authorized was
   permissible.

   Access to High-Level Officials
   RMAs were given access to senior DOD officials, including the Secretary of Defense. For
   some RMAs, this access may not have been available otherwise. As noted by the Principal
   Deputy ASD (PA), the RMA access was special in that not just anyone could meet with the
   Secretary of Defense. However, most of the RMAs we spoke to, as well as the DoD
   officials, did not believe that access to senior officials was more than that afforded the
   mainstream media. In addition, we found that other outreach groups and the mainstream
   media participated in almost a third of the RMA outreach activities.


Contractor Affiliations
We identified 43 RMAs that had defense contractor affiliations during the time they participated
in RMA outreach activities. Neither statute nor policy prohibited the RMAs from being
affiliated with a defense contractor and participating in RMA outreach activities. Further, based


                                                3
DoDIG-2012-025


on asking 35 of the 43 RMAs, we did not identify any RMA who used the RMA outreach
activities to gain new or expanded contract business or who profited financially, related to the
contractor affiliation from information received as a RMA. There are potentially other tangible
and intangible benefits that an RMA may have gained from being a part of the RMA outreach
activities. This review only addressed the potential benefit to the contractor or the RMA by way
of the contractor affiliation.

Conclusions
We found that the OASD (PA) conducted the RMA outreach activities in compliance with policy
and regulation; and, with the exception of two classified briefings to those with a security
clearance, did not provide access for RMA participants to travel, classified information, and
senior officials that was special or different relative to other outreach groups or the mainstream
media. The exceptions we found did not, in our opinion, affect our conclusion or lead us to make
recommendations to change or modify the DoD directives and regulations.

Although the RMA outreach activities complied with DoD directives and regulations,
improvements could be made in conducting such activities. The OASD (PA) lacked a stated
purpose for RMA outreach activities to include a lack of internal operating procedures or
guidelines for the RMA outreach activities. The lack of such procedures resulted in a loosely
defined outreach group of military analysts (they were not all TV or media analysts); some
RMAs who did not know they were part of such a group; and the perception of people being
“dropped” for being critical and inappropriately being provided travel. In addition, lack of clear
operating procedures and understanding of the group’s purpose led to some RMAs receiving
classified information.

Based on interviews, we did not identify that the RMA outreach activities provided a financial
benefit to those RMAs affiliated with a defense contractor. Our review of relevant procurement
ethics rules and regulations identified nothing that would preclude the RMAs with such an
affiliation from participating in the events.

An internal plan, procedures or guidelines that define a homogenous group such as retired
military analysts, the group’s general purpose and operations may have avoided the activities,
such as attendance by three RMAs at classified briefings at Guantanamo Bay Detention Facility.
Furthermore, such actions may have prevented misunderstandings or misperceptions about RMA
outreach activities, such as the perception that attendance by RMAs with Defense contractor
affiliations provided a financial benefit, related to a contractor affiliation, to themselves or the
contractor.

Recommendation
We recommend that the Assistant Secretary of Defense (Public Affairs), in consonance with
DoD Directive 5122.5, “Assistant Secretary of Defense for Public Affairs (ASD (PA)),”
September 27, 2000, paragraph 3.1, establish guidance to develop a plan for groups such as the
retired military analysts that clearly defines the outreach group, including its purpose, its make-
up, and the nature of its activities.




                                                 4
DODIG-2012-025


Management Comments and Our Response
The Principal Deputy Assistant Secretary of Defense (Public Affairs) commented to a draft of
this report and concurred with the report findings and recommendation. The comments are
included in this report. However, the comments are not fully responsive to the recommendation.
To fully implement the recommendation, the ASD (PA) should document the internal operating
procedures or management controls that will provide and ensure outreach groups have a clearly
defined purpose, group membership, the nature of the activities, and what type of information
will be provided, such as classified, for existing groups that might have issues similar to those of
the RMAs. This is especially critical for those outreach groups, like the RMA group, that have
representatives with multiple roles, such as media and contractor affiliation. Such internal
operating procedures and controls will enhance transparency and avoid misunderstandings and
misperceptions. We ask that you provide additional comments by January 9, 2012 to clarify
action to be taken.




                                                 5
DoDIG-2012-025




BACKGROUND
Based on an American Journalism Review news article published in June 1999, the number of
military analysts working for news organizations proliferated with the war in Kosovo to the point
where ―. . . [n]o fewer than 20 retired generals, lieutenant generals, major generals, admirals,
colonels and lieutenant colonels . . .‖ were working as retired military analysts shortly after the
bombing began in March 1999. According to the article, one RMA had an exclusive contract
with the National Broadcasting Company while others ―drifted from network to network.‖

A subsequent article published in May 2003 reported that ―. . . when [the Iraq] war broke out [in
March 2003], the broadcast networks and cable channels had amassed enough high-ranking
officers to stage their own invasion. . . . NBC claimed, among many others, retired Gen. Norman
Schwarzkopf . . . ABC boasted four retired generals and a lieutenant general as part of its 19-
member team of experts for the war. . . . Playing for CBS was retired Gen. William ―Buck‖
Kernan . . . and Gen. Joseph W. Ralston. . . . Former Gen. Wesley K. Clark . . . was one of
CNN‘s stars. [Major General] . . . Burton Moore . . . was part of Fox News Channel‘s group of
analysts. . . . Fox News Channel, which may have more paid analysts than any other news outlet,
counts more than 50 experts on its payroll.‖ Generally, the military analysts were senior officers
with experience, knowledge, and credibility in military matters.

Historically, DOD officials invited retired military members to meetings or briefings to provide
information and to solicit their opinions on individual military operations or matters. However,
retired military members were not included as a group in a DOD program and they were not
routinely invited as a group to participate in meetings or briefings with senior DOD officials.
The retired military members relied on their own information sources, including their Pentagon
contacts, to maintain currency in military matters involved in their work with media and other
organizations.

The DOD Community Outreach Program has evolved over the years. During its existence, the
program has produced up to as many as 32 outreach groups. The outreach efforts included
groups such as religious leaders, veterans‘ service organizations, and former senior government
officials. See Appendix A for other examples of outreach groups. During the time covered by
our review, DODD 5122.5, ―Assistant Secretary of Defense for Public Affairs (ASD (PA)),‖
September 27, 2000, required OASD (PA) to ensure the free flow of news and information to
news media and the general public. DODD 5410.18, ―Public Affairs Community Relations
Policy,‖ November 20, 2001, encompassed all DOD community relations activities regardless of
name, activity, or sponsorship. The requirements established in the directive were to increase
public awareness and understanding of DOD and the individual Military Departments, including
their missions, activities, policies, and requirements. This policy limited OASD (PA)‘s support
to activities with a ―common public interest‖ to ―benefit a broadly representational community.‖
The term ―community relations‖ was defined as ―[t]he interactions between the Department of
Defense and civilian communities at home and abroad at all levels.‖




                                                6
DODIG-2012-025


Following the terrorist attacks on September 11, 2001, OASD (PA) used the Community
Outreach Program to provide information about the war on terrorism and other significant
Defense issues. In January 2002, OASD (PA) committed to program expansions which resulted
in an increase of Secretary of Defense outreach briefings from 18 in 2001 to 42 in 2002. In
January 2003, OASD (PA) proposed building on its achievements in 2002 based on goals for
2003 that included ―additional outreach components‖ such as establishing:

         a media program to embed over 1000 journalists with military units deployed to the
         wars in Iraq and Afghanistan; and
         the ―Pentagon Channel,‖ a 24-hour news channel providing continuous information to
         DOD personnel and their families.

Expansion also included adding RMAs to community outreach efforts. For example, one
OASD (PA) document listed 60 Pentagon outreach meetings involving 25 different outreach
groups between October 26, 2001, and March 16, 2006. Of the 60 outreach meetings, 14 were
for RMAs and 46 were for other outreach groups.

Our document review indicated about 147 organized events involving RMAs occurred between
October 2002 and February 2008. Following the New York Times article in April 2008, then
Principal Deputy ASD (PA), Mr. Robert Hastings, told us he suspended RMA outreach activities
―because the seriousness of the allegations warranted a review.‖

In its legal opinion (B-316443, July 21, 2009), GAO concluded ―. . . these [RMA Outreach]
activities did not violate the publicity or propaganda prohibition.‖ However, according to GAO,
members of Congress raised legitimate questions regarding ―. . . the intersection of DOD‘s
public affairs activities and the possibility of compromised procurements resulting from potential
competitive advantages for Defense contractors with commercial ties to RMAs.‖ As of the date
of this report, the Federal Communication Commission had not completed their investigations.




                                                7
DODIG-2012-025



SCOPE AND METHODOLOGY
We focused on the public affairs outreach to RMAs, including the DOD offices involved in
establishing and implementing RMA outreach. Our evaluation addressed the years 2002 through
2008 when RMA outreach activities occurred.

We obtained and reviewed over 25,000 documents, including electronic mail, travel and related
documents, invitations to RMA outreach activities, and event transcripts. Our review included
both unclassified and classified documents. We coordinated with OASD (PA), the DOD Office
of General Counsel (OGC), the Washington Headquarters Services, and Verizon
Communications to obtain all records, communications, and recordings pertaining to RMA
outreach activities. We also used information from available security clearance background
investigation records, official military personnel files,3 and DOD databases to form our interview
questions and analyze the results.

We developed standard questionnaires for interviewing RMAs and OASD (PA) personnel. We
identified and interviewed 65 current or former DOD officials or staff members involved in the
activities. We also interviewed 63 of the 74 RMAs who participated in RMA outreach
activities.4 Our interviews included:

               RMAs who attended varying numbers of events, from most events to one event; and
               at least one RMA at every event.

In addition, we interviewed all but 2 of the 31 RMAs and DOD officials named in the New York
Times article.

We reviewed Federal and DOD requirements that govern OASD (PA) outreach activities. Our
review included assessing whether DOD policy exists for determining individual RMA inclusion
in the activities, and for inviting and approving/disapproving RMA participation in individual
activities events. In addition, we examined the Omnitec Solutions, Inc. contract actions and
deliverables to determine how OASD (PA) implemented the contract for media analysis and its
use in RMA matters. Appendix B lists the relevant Federal and DOD requirements covered in
our review.




3
  Security clearance information was not available for eight RMAs and military records were not available for eight
of the RMAs. We did not pursue why these records were missing; it was not relevant to the scope of our review.
However, we interviewed six of the eight RMAs for whom we could not obtain security clearance records and the
eight RMAs for whom we could not obtain military personnel records.
4
  We also interviewed seven possible RMAs whom we ultimately determined did not participate in RMA outreach
activities. We completed a total of 70 interviews: 63 of RMAs and 7 who we determined were not RMAs. Eleven
participating RMAs were not interviewed due to: death or poor health (2); limited accessibility or involvement (4);
or declined interview requests (5). We did not pursue interviews with the five RMAs (or one granting only a partial
interview) who declined interview requests after determining it unlikely the interviews would produce new
information that would alter the factual considerations or review outcome.

                                                         8
DODIG-2012-025


In conducting this review, we used the preponderance of the evidence standard, which is that
degree of relevant evidence that a reasonable person, considering the record as a whole, would
accept as sufficient to find that a contested fact is more likely to be true than untrue.

Identifying RMA Participants and Events
Although a few documents that we reviewed included RMA addresses, contact information and
affiliations, none were labeled as an official ―RMA List‖ and none identified RMA participants
(both active and inactive) at any given date. Therefore, we reviewed invitations and other lists
related to individual RMA outreach activities, initially identifying 86 ―possible‖ RMAs. The
number of RMAs varied from a low of about 30 in 2003 to a high of about 59 in 2006.
However, the events were not attended by RMAs exclusively. About one-third (47 out of 147)
included representatives from other outreach groups and/or the general media.

Our review established that individual RMAs on the list fluctuated over time. Although we did
not identify any list with more than 59 RMAs, based on processing and indexing the documents,
we identified 74 RMAs who participated in 147 RMA outreach activities between October 31,
2002, and February 15, 2008. This equates to about 27 events per year over the 65-month
period:

        7 RMAs participated in at least half of the events;
        6 RMAs participated in 26 - 49% of the events;
       22 RMAs participated in 10 - 25% of the events; and
       39 RMAs participated in less than 10% of the events.

The information we had for the review was not always clear and some was contradictory. For
example, some RMAs were unaware they were part of an outreach group or said they did not
attend an event. The RMA outreach events involved high-level RMAs and DOD officials with
busy schedules, which at times resulted in changes to event schedules and participation. A
change might be ―last-minute‖ and not reflected in the available activities documents. In this
regard, several RMAs testified that they did not participate in some RMA outreach activities
although our document review identified them as participating in one or more events. To the
extent that these RMAs offered personal calendars or other documents refuting the documents
included in our review, we adjusted our findings. In those cases where the record was unclear,
we used our professional judgment to identify RMA outreach participants, events, and other
information used in this report.

Therefore, our findings and conclusions reasonably established that 74 RMAs participated in
147 RMA outreach activities between October 31, 2002, and February 15, 2008, as follows:

       11 travel events: 6 trips to the detention center at Guantanamo Bay, Cuba, and 5 trips to
       operational areas in Iraq; and

       136 meetings or telephone conference calls with senior DOD officials: 22 meetings at the
       Pentagon and 114 conference calls.



                                                9
DODIG-2012-025


Identifying Contractor Affiliations
We relied primarily on 63 RMA interviews to identify those with defense contractor affiliation(s)
and whether they benefited from the affiliation(s). We used relevant information from available
security clearance background investigation records to inform our interview preparations and to
verify interview information. In addition, we checked available official military personnel files
for indications that officers may have held positions with acquisition responsibilities prior to
leaving government service. Our personnel file reviews did not reveal information impacting our
review. Additional work to identify RMAs‘ defense contractor affiliations included checking the
Joint Clearance and Access Verification System, a subsystem in the Defense Security Service‘s
Joint Personnel Adjudication System, which also did not produce information impacting our
review. Finally, in interviewing current and former DOD personnel, we asked specific questions
addressing this area. Appendix C identifies RMAs that had contractor affiliations.




                                               10
DoDIG-2012-025




FINDINGS AND ANALYSIS
A. Did the RMA Outreach Activities Comply with Policy and
   Requirements?
In addressing whether the RMA outreach activities complied with policy and requirements, we
considered the activities‘ purpose and intent, and its implementation specifically as related to: (1)
media representation, (2) how participants were selected, removed or excluded from further
participation in outreach events; (3) how talking points were used; (4) whether RMA outreach
activities were coordinated with the White House; (5) whether a contractor (Omnitec Solutions,
Inc.) was used to monitor and report on RMA media broadcasts and writings; (6) RMA access to
classified information; (7) sponsored travel for RMAs; (8) RMAs access to senior officials.

RMA Outreach Activities Purpose and Intent
DODD 5122.5, ―Assistant Secretary of Defense for Public Affairs (ASD (PA),‖ September 27,
2000, required OASD (PA) to ensure a free flow of news and information to the news media and
general public. DODD 5410.18, ―Public Affairs Community Relations Policy,‖ November 20,
2001, encompassed all DOD community relations activities regardless of name, activity, or
sponsorship, and was intended to increase public awareness and understanding of DOD and the
individual Military Departments, including their missions, activities, policies, and requirements.
This policy limited OASD (PA)‘s support to activities with a ―common public interest‖ to
―benefit a broadly representational community.‖ The term ―community relations‖ was defined
as ―[t]he interactions between the Department of Defense and civilian communities at home and
abroad at all levels.‖ This policy covered RMA outreach activities.

Except for one unsigned, undated, draft memorandum prepared for internal distribution, we did
not find any OASD (PA) documents describing the outreach activities, the reason(s) for adding
RMAs to the activities, or how either the activities or the RMA element was intended to operate.
The draft memorandum, an ―Office Overview‖ for OASD (PA) Community Relations and Public
Liaison, described the overall responsibilities and the office‘s involvement in various initiatives
related to this responsibility, including 12 key outreach audiences with regard to current DOD
issues, initiatives, operations and programs. One of the 12 key outreach audiences was ―TV
Pundits,‖ which was made up of retired military officers turned commentators for news and
cable networks.

Mr. Robert Hastings, a former Principal Deputy ASD (PA), told us that he read approximately
7,000 pages of the documents released to the New York Times under the Freedom of Information
Act. Mr. Hastings also asked members of his staff ―Is there a plan? Is there a strategy?‖ He told
us, ―. . . I was . . . looking for . . . the plan . . . [but] never discovered . . . any document that said,
‗[h]ere‘s what you‘re going to do and here‘s what our objectives are and here are the resources
you have to get it done.‘ I never discovered that.‖




                                                     11
DODIG-2012-025


To determine whether the RMA outreach purpose and intent were consistent with the overall
policy for community relations, we asked current and former DOD officials, as well as RMAs
about their understanding of the program purpose, intent and expectations.

   Public Affairs Perspective
   We interviewed DOD officials in key positions with the program authority, responsibility,
   and involvement needed to understand and address the issues. The key officials included two
   former ASD (PA), a former Acting ASD (PA), a former Principal Deputy ASD (PA), and a
   former Deputy ASD (PA) for Internal Communications/Public Liaison and a current
   Principal Deputy ASD (PA). Collectively, the officials described the community outreach
   activities as providing news and information to many audiences; to inform, educate,
   and increase understanding of what DOD is doing; and to generate feedback. For
   example, Ms. Victoria Clarke, a former ASD (PA), saw the outreach activities as ―a two-way
   street‖ useful for people not involved with DOD every day, and who could ―provide us with
   some . . . feedback and . . . perspective.‖ Ms. Allison Barber, a former Deputy ASD(PA) for
   Internal Communications/Public Liaison, told us ―[t]he intent of our Outreach Program was
   inform and educate key . . . people that had the ability to educate more people.‖ Ms. Barber
   said ―[t]he Outreach Program was really about informing and educating people about
   the policies, and the mission and the vision of the Department of Defense, so . . . they could
   inform and educate people that they talk to.‖ Ms. Barber stated she firmly believed in the
   ―force multiplier approach to communication . . . You tell two people, they tell two people
   and so on . . .‖

   RMA Perspective
   In general, the RMAs we interviewed told us that the outreach activities were intended to
   inform or help RMAs get accurate information to the American public. For example, one
   RMA described the outreach as a strategic communications program to inform the American
   public about major issues, and to reach out to various groups and keep them informed. One
   retired military officer told us that he never attended an event because he thought it
   ―appeared‖ that the outreach was trying to ―unduly influence‖ the military analysts and he
   did not want to get involved. However, he also said he believed that the outreach‘s intent
   was to get accurate information to the military analysts so that they can get the story out to
   the American people. This RMA stated that OASD (PA) had difficulty getting information
   out to the mainstream media.

Absent written internal procedures for the RMA outreach activities, we relied largely on our
interview results to determine the program‘s purpose and intent. Overall, our interviews
indicated that the RMA outreach activities were intended to serve as an open information
exchange with credible third-party subject matter experts with background and experience
necessary to question and explain military issues, actions and strategies to the American public.
This understanding of the outreach activities‘ intent is consistent with DOD policy and guidance
for community outreach.




                                               12
DODIG-2012-025


RMA Outreach Activities Implementation
In assessing how the outreach activities were implemented, we looked at media outlet
representation, selection for and removal from the activities, talking points, White House
coordination, contracts for media analysis, access to classified information; sponsored travel, and
access to senior DoD officials.

   Media Outlet Representation
   DODD 5410.18, ―Public Affairs Community Relations Policy,‖ dated November 20, 2001
   and certified current as of May 30, 2007, required OASD (PA) to ensure its invitations to
   participate in individual outreach events extended across the ―broadly representational
   community‖ involved. As applied to RMA outreach activities, we interpreted the
   requirement to mean that a representation of competitive media outlets should have the
   opportunity to participate in RMA outreach activities.

   We were unable to construct invitation lists from the documentation available.
   Compounding the analysis, during the course of the program an individual RMA might be
   associated with different media outlets or more than one media outlet.

   For our analysis, we looked at media representation at the 22 Pentagon meetings. We used
   Pentagon meetings because documentation identified who attended the meetings. Table 1
   (next page) shows the media outlets represented at the 22 Pentagon meetings.

   Our analysis focused on five major media outlets – ABC, CBS, NBC/MSNBC, CNN and
   Fox. As shown in Table 1, the media outlet representation at the Pentagon meetings ranged
   from ABC representative(s) attending 10 of the 22 events to Fox News representative(s)
   attending 21 of the 22 events. However, of the 22 Pentagon events, approximately two-thirds
   of the events had a representative(s) from 3 or more of the 5 media outlets.

   We found a similar result on the travel to Iraq and Guantanamo Bay. Of the 11 travel events,
   almost half had representative(s) from 3 or more of the 5 media outlets. We did not include
   in this analysis, the ―other‖ individual media outlets represented by RMAs; however, these
   ―other‖ media outlets were represented at 21 of the 22 Pentagon meetings, and 5 of the 11
   travel events.

   OASD (PA) did not maintain a list of RMA participants; the names changed over time and
   we did not find criteria or other information on how they decided who to invite to particular
   events. Also, OASD (PA) cannot control who responds to the invitations or attends the
   events. However, at least two emails showed that OASD (PA) officials intended to involve a
   cross section of media outlets in the individual RMA outreach activities. For example, one
   e-mail discussing invitations advised, ―… I left the invite composition to . . . as he knew best
   the folks that actually get on TV . . . [I] just made sure we invited abc, nbc, cbs, fox, and cnn
   (sic).‖

   Although, we were unable to document invitees to all events, we concluded that OASD (PA)
   made an attempt to ensure ―broad participation.‖ The conclusion is based on about half of

                                                13
DODIG-2012-025


  the Pentagon and travel events having a representative from three or more of the five major
  TV news outlets.



                   Table 1. Media Representation at Pentagon Meetings
                                     Media Represented based on RMA Affiliation
            Meeting Date     ABC      CBS     NBC/MSNBC1        CNN      Fox      Other2
               10/31/2002                           X             X       X         X
                1/10/2003      X                    X             X       X         X
                2/12/2003                           X                     X         X
                3/13/2003      X       X            X             X       X         X
                 6/6/2003              X            X             X       X
                8/12/2003      X       X            X             X       X         X
               11/24/2003      X                    X                     X         X
                2/11/2004      X       X                                  X         X
                3/31/2004      X       X            X                     X         X
                6/16/2004      X       X            X             X       X         X
                 9/8/2004              X                                  X         X
                 2/3/2005      X       X            X                     X         X
                6/16/2005              X            X                     X         X
                 8/9/2005              X                                  X         X
                9/28/2005      X                                          X         X
                4/18/2006      X       X                          X       X         X
                6/22/2006                                         X       X         X
               10/23/2006                                                           X
               12/12/2006              X                          X       X         X
                1/31/2007              X            X             X       X         X
                10/3/2007              X                          X       X         X
                2/15/2008              X                                  X         X
       1
        General Electric, Inc. owns NBC Universal, which owns both NBC and MSNBC. Some
       documents listing media affiliations did not distinguish between NBC and MSNBC; therefore
       for comparison purposes, we combined NBC and MSNBC.
       2
         Includes RMAs affiliated with magazines such as The American Spectator Magazine;
       organizations such as the Heritage Foundation, and National Public Radio; as well as RMAs
       who identified their affiliations as ―freelance.‖



  Selection for and Removal from RMA Outreach Activities
  Little from our documents review or interviews described how RMAs were selected for the
  outreach program. Similarly, little described who or how particular RMAs would be invited

                                                  14
DODIG-2012-025


  to given events, or when RMAs would no longer be included in the program. Many of the
  RMAs we interviewed were not aware that they were part of the outreach program.

  Of the 74 RMAs, only 53 were affiliated with media outlets (see Appendix C). The 21
  RMAs without media affiliations included, for example, one defense contractor employee
  and two with backgrounds in journalism but not involved with a media outlet. The defense
  contractor employee told us Secretary Rumsfeld explained why he was included as a RMA,
  advising ―. . . [w]e‘ve got a wide range of influential successful people that have retired,
  senior generals and other people in here. You guys influence a wide range of people. We‘d
  like to be sure you have the facts.‖ Similarly, former ASD (PA) Victoria Clarke told us, ―. . .
  it was usually their . . . stature in the military community that would cause them to be part of
  this group‖ and ―I looked at them for their recent or relevant experience in the military, not
  for whatever else they were doing. . . .‖

  Four RMAs told us they were removed from participating in RMA outreach activities
  because they were critical of the department operations —General (Ret.) Barry McCaffrey,
  General (Ret.) Wesley Clark, Lieutenant General (Ret.) Daniel Christman, and Lieutenant
  Colonel (Ret.) William Cowan.

     General (Ret.) Barry McCaffrey
     According to our documentation, General McCaffrey was affiliated with NBC and
     participated in seven RMA outreach activities between October 31, 2002, and April 1,
     2003. General McCaffrey recalled attending meetings with senior leaders at the
     Pentagon before the Iraq war began in March 2003. He told us:
         I remember being . . . critical of [the] war, I think . . . [in] the April 1, 2003 Wall Street
         Journal . . . [and in] . . . a series of TV . . . and . . . radio interviews that probably pre-date
         this article . . . in my gut I know . . . I became a public enemy to the Rumsfeld team; not to
         the Chairman of JCS [Joint Chiefs of Staff], not to the army staff, the navy staff, the air
         force staff, not to GEN [John P.] Abizaid . . . [Commander, U.S. Central Command, from
         July 7, 2003, until March 16, 2007]. They were sending me . . . as an academic . . . in and
         out of the war zone . . . .
     In describing how he became aware that the invitations stopped, General McCaffrey said:
         . . . I would hear from other . . . analysts that there was a conference call and that I wasn‘t
         included . . . when the war started I doubt there was ever again anything but animosity by
         DoD towards me with a caveat the Chairman was still seeing me, the Chief of Staff of the
         Services, et cetera. Abizaid was still seeing me and when I would go to Iraq I would
         always see the CENTCOM [U.S. Central Command] Commander before and after
         normally. But I wasn‘t part of this [RMA] effort . . . .
     A former OASD (PA) Director for Community Relations and Public Liaison told us ―. . .
     under my tenure only one person was excluded and that was Barry McCaffrey, and that
     was against my judgment . . . .‖ Further, he stated:
          . . . Barry McCaffrey had started challenging . . . the Pentagon-Secretary Rumsfeld‘s
         decisions . . . I was told . . . to immediately take him off [the list] . . . he would have been
         considered not a team player . . . I was told by Chris Willcox that Larry Di Rita and Torie
         Clarke had dismissed [him] through the Secretary -- that this was the Secretary‘s decision
         . . . .‖


                                                       15
DODIG-2012-025


     Two other former OASD (PA) employees recalled unsuccessful efforts to put
     General McCaffrey back on the RMA list. For example, Ms. Allison Barber, a former
     Deputy ASD (PA) for Internal Communications/Public Liaison told us that she knew
     General McCaffrey‘s wife and upon joining the OASD (PA) staff, she suggested adding
     him to the list. Ms. Barber said that Ms. Clarke informed her ―Barry is not on this list.‖

     None of the officials identified as involved in the decision to stop inviting
     General McCaffrey to the RMA outreach activities recalled such a decision. For
     example, Ms. Clarke told us ―I don‘t recall that.‖ Mr. Willcox told us ―I don‘t remember
     that [ever being told to take somebody off the list]. It could have happened.‖

     When asked whether publishing an article and being critical would have been cause to
     exclude General McCaffrey from further participating in Pentagon briefings, Secretary
     Rumsfeld responded, ―I don‘t know for sure.‖ He recalled that General McCaffrey was a
     professor at West Point and a drug czar in the Clinton administration. Secretary
     Rumsfeld also recalled that General McCaffrey ―was a critic . . . [while] he was being
     paid by West Point, by the Department of Defense, as a professor . . . .‖ However,
     Secretary Rumsfeld said that he did not recall personally disinviting General McCaffrey
     or ever saying that General McCaffrey could not come to RMA outreach activities.

     A preponderance of evidence indicates that General McCaffrey stopped receiving
     invitations because he was a critic. But, he told us that he continued to have access to the
     Pentagon and in the field. In this regard, documents show that in the more than 3 years
     after his participation in RMA outreach activities ended, General McCaffrey, supporting
     the U.S. Central Command, traveled to Iraq in April 2006 and completed a follow-up
     ―academic‖ trip to Afghanistan in February 2007.

     General (Ret.) Wesley Clark
     Our documentation shows that General Clark was affiliated with CNN when he
     participated in six RMA meetings and telephone conference calls between October 31,
     2002, and July 10, 2003. The New York Times archives for September 18, 2003, included
     an article reporting General Clark‘s September 17, 2003, announcement that he was
     running for President of the United States. Five RMA meetings and conference calls
     occurred between General Clark‘s last RMA event and his candidacy announcement.
     Our documentation does not establish conclusively whether General Clark was invited to
     any of these events. The documentation includes only a ―Participating‖ list for three
     events. For the remaining two events, the documentation includes ―Participating‖ and
     ―Tentative or Declined‖ lists. General Clark‘s name does not appear on any of these lists.

     General Clark told us that CNN advised him he was not invited to RMA outreach
     activities and he ―took that as a sign‖ the Pentagon ―was displeased with his reporting.‖
     General Clark said that he took his response this way because other RMAs at CNN were
     invited, but this may have been incorrect, that ―. . . [m]aybe they tried to reach me and . . .
     couldn‘t . . . .‖ In addition, General Clark said that CNN made him feel like he ―. . .



                                               16
DODIG-2012-025


     wasn‘t trusted by the Pentagon . . . wouldn‘t be able to get . . . good . . . information and
     therefore . . . wouldn‘t be as good a commentator . . . .‖

     Although General Clark did not officially announce his candidacy for U.S. President until
     September 2003, he told us:

            ―. . . Secretary Rumsfeld came around [at the January 10, 2003, RMA meeting at
            the Pentagon] and asked me [if] was I going to run for President . . . .‖
            ―. . . in February of 2003, I got a call from CNN in which the CNN person told me
            . . .‗The White House has called and they want us to . . . release you from your
            contract as a commentator . . . They said you‘re an undisclosed presidential
            candidate.‘‖
            ―. . . Shortly after . . . [his Gulf War commentary] CNN told me I wasn‘t going to
            be needed anymore and we ended our relationship. . . I broke my contract . . .
            CNN . . . hadn‘t put me on in like six weeks. . .there‘s no point in being on
            contract where other people were calling me and asking me to be on television
            and I couldn‘t . . . I was on television a lot after I left CNN and before I ran . . .
            [my] presidential campaign . . .‖

     Aside from General Clark‘s concerns, we found no indications General Clark was not
     invited due to his commentary. One official said ―I think when he announced his bid for
     President we took him off. . . .‖ Another official said he thought General Clark did not
     participate in RMA outreach activities because, ―he started focusing on his run for the
     Oval Office and then he was writing a book at the time. So I thought those things right
     there may have diverted his attention and he didn‘t have time for this.‖

     Another RMA recalled that General Clark was initially involved in RMA outreach
     activities. However, it was apparent to him that General Clark had a political agenda and
     represented his political beliefs, which went against the intent of the outreach program.
     The RMA did not know whether General Clark was dismissed from RMA outreach
     activities, but did notice that General Clark was at some initial meetings and then stopped
     attending.

     Secretary Rumsfeld told us he did not know that General Clark was excluded from RMA
     outreach activities. Secretary Rumsfeld knew that General Clark was an active Democrat
     running for U.S. President but did not know whether General Clark was considered an
     ―appropriate retired military analyst or a partisan.‖

     General Clark did not formally announce his candidacy for U.S. President until
     September 2003. However, based on testimony, his intentions were either well known or
     assumed much earlier. Although the information is not conclusive, evidence suggests
     that General Clark‘s decision to run for President was the reason OASD (PA) stopped
     issuing RMA invitations.




                                               17
DODIG-2012-025


        Lieutenant General (Ret.) Daniel Christman
        OASD (PA) documentation shows that Lieutenant General (LTG) Christman was
        affiliated with CNN and participated in 11 Pentagon meetings and conference calls
        between March 19, 2003, and October 23, 2003. LTG Christman told us he recalled
        attending three RMA outreach activities at the Pentagon and participating in
        approximately six telephone conference calls while working as a CNN analyst, a position
        he held from March to May 2003. He said that General Clark was a friend and he
        recommended General Clark for the position at CNN. In addition, LTG Christman said
        that General Clark asked him to help with the General‘s presidential campaign.
        LTG Christman stated that he made ―a couple of appearances‖ on behalf of
        General Clark. LTG Christman believed the invitations to the RMA outreach activities
        stopped due to his association with General Clark, but agreed they may have stopped
        altogether because LTG Christman became involved in General Clark‘s presidential
        campaign. Finally, LTG Christman said ―when the invites stopped, it wasn‘t a big . . .
        deal for me . . . I didn‘t have that much time . . . to devote to it . . . [and] could get the
        information . . . I needed fairly quickly, either from the Pentagon or from . . . colleagues
        . . . at West Point.‖

        The OASD (PA) officials we interviewed were not familiar with LTG Christman‘s
        attendance at RMA outreach activities or his relationship with General Clark.

        Based on our documents review, LTG Christman‘s participation at RMA outreach
        activities continued approximately 5 months after his position as a CNN analyst ended
        and approximately 1 month after General Clark announced his presidential bid.

        Lieutenant Colonel (Ret.) William Cowan
        Our documents show Lieutenant Colonel (LtCol) Cowan was affiliated with Fox News
        and attended 21 RMA outreach activities between July 31, 2003, and August 9, 2005. He
        told us ―. . . he was one of Fox‘s pretty visible guys [who] . . . was often critical . . .
        [and] not invited to the RMA Outreach activities until they had been going on for
        some time . . .‖ He described his departure from RMA outreach activities as an ―abrupt
        dismissal‖ attributed to a ―. . . one person . . . decision . . . ‖ by General Peter Pace,
        Chairman, Joint Chiefs of Staff. LtCol Cowan said that he had criticized General
        Pace and General Richard Myers, the previous Chairman, but was ―. . . out . . .
        the minute . . .‖ General Pace was nominated as Chairman. Although indicating
        he would participate in the activities again if asked, he concluded ―. . . I always
        considered being fired from the RMA group as a badge of honor . . . .‖

        LtCol Cowan criticized the ―advisor program‖ for Iraq military and police
        training during a Fox News appearance on August 23, 2005. He told us that he
        subsequently ―. . . got a blistering email5 . . . which I felt bad about . . . I was


5
 E-mail received from a military department public affairs officer assigned to Multi-National Security Transition
Command.

                                                        18
DODIG-2012-025


        harsher about the program than maybe I should have been -- not out of any
        loyalty to the Pentagon . . . but out of loyalty to those men and women who were
        doing that -- that was my mistake, for which I apologized.‖

        General Pace was the Chairman, Joint Chiefs of Staff, from September 30, 2005, until
        October 1, 2007. General Pace told us that he and LtCol Cowan had been neighbors
        early in their military careers and he was unaware LtCol Cowan had traveled to Iraq or
        criticized war efforts there. General Pace said he had not read the New York Times
        article. When asked directly if he had LtCol Cowan ―removed or dumped from RMA
        outreach activities based on personal issues or what he was reporting,‖ General Pace
        testified ―I did not.‖ Similarly, General Myers told us ―. . . I was challenged by lots of
        people, members of Congress, all sorts of people . . . That would never be a reason to say,
        ‗Oh, we don‘t talk to that person again.‘‖

        A former OASD (PA) Community Relations employee responsible for arranging RMA
        outreach activities from about December 2004 until about March 2007, recalled
        LtCol Cowan saying ―. . . I know they‘re mad at me in the front office or whatever, but
        you can tell me whatever . . . .‖ The employee told us ―. . . I never took him [LtCol
        Cowan] off my [RMA] list . . . .‖

        A former OASD (PA) Community Relations Director told us that he liked LtCol Cowan
        and did not recall removing him from the RMA list. He recalled ―[LtCol Cowan] . . . was
        a bit of persona non grata there for a little bit and . . . thought it was just a personal thing
        . . . .‖ The former director said ―. . . I think he [LtCol Cowan] and Eric Ruff had a falling
        out . . .‖ Former Special Assistant to the ASD(PA), Deputy ASD(PA), and Press
        Secretary Mr. Eric Ruff, on the other hand, recalled ―. . . I called him and talked to him
        . . . like an[y] other . . . journalists when I didn‘t think they had it right . . .‖ but ― . . . I
        don‘t ever remember telling Bill [Cowan] . . . you‘re fired or whatever the term.‖

        Ms. Allison Barber, Deputy ASD (PA) for Internal Communications/Public Liaison from
        November 2003 until October 2008, agreed that LtCol Cowan was candid, ―. . . [y]ou
        know, not necessarily negative always, but . . . tough . . . [b]ut there was never any
        vetting process of who agrees with us, who disagrees with us . . . in Public Affairs our job
        is to inform and educate across the political sphere, across the strategy sphere . . . .‖

        Subsequent to the August event that LtCol Cowan thought precipitated his removal, our
        documentation shows that LtCol Cowan declined invitations to three events, the last on
        September 28, 2005. In addition, our documentation shows that OASD (PA) continued
        to regard LtCol Cowan as a military analyst for several months thereafter. Specifically,
        he was shown as an unconfirmed participant in a July 2006 event and referenced in an
        OASD (PA) document entitled Snapshot: Military Analyst/Expert Commentary
        (December 15 [2005] - January 4[2006]6) ―. . . [t]he top military analysts interviewed


6
 The document does not show the year involved. We determined the year based on events mentioned in the
document.

                                                     19
DODIG-2012-025


     during this time period were . . . Bill Cowan (Fox News) . . . Analysts on some of
     the more prominent talk shows . . . included . . . Bill Cowan . . . .‖

     Based on analysis of the available information, we concluded LtCol Cowan did not stop
     receiving RMA invitations due to either criticizing the war efforts or a request from
     General Pace. It is unclear why LtCol Cowan stopped receiving RMA invitations, but the
     end did not coincide with his criticizing the war efforts in August 2005, or with General
     Pace being nominated as Chairman, Joint Chiefs of Staff, in April 2005. Both events
     occurred almost a year before the last OASD (PA) document we found including LtCol
     Cowan as a RMA. Aside from the fact that LtCol Cowan began declining RMA
     invitations, we did not find any reason for the invitations to end.

  Talking Points
  Documents indicate that on occasion, RMAs received talking points or handouts in
  connection with individual RMA outreach activities. If included on the distribution list, the
  RMAs also received talking points occasionally in an OASD (PA) newsletter distributed
  once or twice weekly. Former Deputy ASD (PA) for Internal Communications/Public
  Liaison, Chris Willcox, described these talking points as excerpts from speeches by the
  Secretary, Deputy Secretary, or Chairman, Joint Chiefs of Staff. Mr. Willcox told us that the
  talking points were ―fact oriented‖ information ―taken from public documents‖ and placed in
  a newsletter distributed once or twice weekly by email to ―a very large group‖ that included
  RMAs, university presidents, and others. He said that the talking points only included
  opinions if ―opinions were expressed by the leadership‖ in, for instance, a speech. Mr.
  Willcox stated ―. . . [w]e didn‘t put our opinions on anything.‖ Similarly, former Principal
  Deputy ASD (PA) Lawrence Di Rita advised us that ―the intent was to provide the RMAs
  factual information . . . sort of our take on what was happening, and here are the facts.‖

  In addition, some RMAs requested talking points on specific topics or issues. For example,
  in an October 2006 email, one RMA expressed ―. . . [a] lot of inquiries about Afghanistan
  since Saturday will be fifth anniversary. If you have anything good on this in terms of
  talking points or can arrange a teleconference it would likely be worthwhile.‖

  When asked about providing talking points to RMAs, former ASD (PA) Victoria Clarke told
  us she did not know what ―we may have given them.‖ She said she could not remember
  what ―we may have given press secretaries on the Hill or . . . anybody else.‖ She stressed
  throughout the interview that the main effort was providing as much factual information
  using different vehicles to as many people as possible. She said, ―[t]he RMA group was one
  of many, many groups to whom we provided as much news and information as possible.‖ Of
  the current or former DOD officials or employees asked to describe talking points, one
  official said they could include DOD policy opinion, while others said talking points were
  fact-based; several officials were unaware any talking points were provided.

  We also asked individual RMAs about the talking points. One RMA told us that the
  documents OASD (PA) provided were not talking points, but a ―political agenda expressed in
  some way in bullet points given for a political purpose to someone who is going to make a


                                             20
DODIG-2012-025


  speech, or go on television, or radio, or write something.‖ In clarifying his position, the
  RMA stated that OASD (PA) provided him with ―information points‖ on many different
  topics and he frequently asked for them. Another RMA who also did not view the
  OASD (PA) documents as talking points told us that he prepared his own talking points prior
  to interviews or broadcasts. Although one RMA‘s testimony indicated that he believed the
  RMA outreach‘s intent ―. . . was to move everyone‘s mouth on TV as a sock puppet‖ and
  was ―. . . a white-level psyop [psychological operations] program to the American people,‖
  he also said that continued participation in the activities did not require RMAs to ―parrot‖
  what they were told. The RMA said that he was never told ―[y]ou have to use this . . . [t]hey
  just basically said . . . it‘s your reference material . . . a bunch of list of facts.‖ The RMA
  also said he never used talking points in media commentary and preferred giving
  commentary without notes, talking points, or even knowing what the questions would be.

  In its opinion (B-316443, July 21, 2009), the GAO determined:
     Our case law establishes that an agency is engaging in covert communications and thus
     violating the publicity or propaganda prohibition when it uses its appropriations to fund
     communications that do not disclose that the agency paid for those communications.
     Here . . . we found no evidence, nor was it alleged, that DOD contracted with, or otherwise
     paid, RMOs [Retired Military Officers] for positive commentary. . . . While DOD did provide
     talking points [emphasis added] and other information to RMOs, and some DOD staff referred
     to the RMOs as ‗surrogates,‘ RMOs clearly were not paid by DOD to be news readers or
     otherwise to deliver text provided to them by DOD. Moreover, we found no evidence that
     DOD concealed from the public its outreach to RMOs or its role in providing them with
     information and materials. Indeed, it appears that the public was aware of the program. . . .
     Materials that OASD-PA made available to RMOs were clearly identified as DOD products.
     We also found no evidence that DOD asked RMOs to conceal the outreach program or the
     source of their information. The only restriction we found that DOD imposed on RMOs was
     that they not identify by name any particular individual as a source.
  Our review found nothing contradicting the GAO opinion. As part of its overall community
  outreach, OASD (PA) provided DOD ―talking points‖ as information to ―a very large group‖
  on a recurring basis. On occasion, OASD (PA) also provided ―talking points‖ in connection
  with individual RMA outreach activities, or in response to individual RMA requests for
  information on specific topics. The efforts to distribute DOD information as talking points to
  inform RMAs did not violate law or DOD policy.

  White House Coordination
  We identified only two communications between OASD (PA) and White House personnel
  related to the RMA outreach program:

           A 2006 e-mail from an OASD (PA) staff member to a White House public affairs
           liaison naming eight RMAs and their media affiliations. The White House liaison
           expressed an interest in obtaining contact information for the RMAs who resided
           locally. Our documentation did not indicate whether the contact information was
           provided. The OASD (PA) staff member involved in the incident did not have a
           clear recollection, but thought that the contact information was not provided due to
           privacy concerns.


                                                   21
DODIG-2012-025


               A July 12, 2005, transmittal memorandum from Secretary Rumsfeld to the then
               National Security Advisor, Mr. Stephen Hadley. The memorandum transmitted a
               Public Affairs Research and Analysis report on media coverage from June 24-July
               5, 2005, following a RMA travel event to the Detention Facility at Guantanamo
               Bay, Cuba. Mr. Hadley did not remember receiving the report, or any other
               interaction with RMA outreach. He did recall occasionally inviting former military
               officers for meetings to get their views on Iraq policy after hearing they had visited
               Iraq. Mr. Hadley also recalled inviting General (Ret.) Wayne Downing (deceased)
               and General (Ret.) Barry McCaffrey in to discuss their views on Iraq with the
               President at about the time the Iraq war pre-surge began in 2006. In this regard, the
               Washington Post reported a White House meeting involving Generals McCaffrey
               and Downing on December 11, 2006. This news article, together with the previous
               discussion on General (Ret.) McCaffrey‘s limited involvement, supports the
               testimony that the meeting did not involve RMA outreach.

    We also interviewed each former or acting ASD (PA) involved in RMA outreach activities
    (Ms. Clarke, Mr. Di Rita, Mr. Smith, and Mr. Hastings). None recalled a discussion with
    White House personnel that pertained to RMA outreach or an individual RMA.

    Based on our documents review and interviews, we concluded OASD (PA) did not
    coordinate RMA outreach activities with the White House.

    Contracts for Media Analysis
    OASD (PA) had three contracts with Omnitec Solutions, Inc.7 for media analysis:

               HQ0028-04-F-0538: A 2004 task order to develop a Web-based media analysis
               system called ―Biz 360.‖ Omnitec Solutions, Inc. was selected to provide the
               software license and a developer to load the program onto the OASD (PA) system.
               However, after 18 months and 11 modifications, OASD (PA) decided the system
               did not satisfy its interests and did not continue the service.
               HQ0028-06-C-0012: This 2006 contract was awarded noncompetitively to
               Omnitec Solutions, Inc. for media analysis, ―to provide context about, or to make
               decisions on topics covered by various forms of media.‖
               HQ0028-07-C-0054: The 2007 contract was awarded competitively to Omnitec
               Solutions, Inc., providing for 12-month contract deliverables beginning October
               2007 and ending September 2012.

     The Statement of Work in both the 2006 and 2007 contract listed the following objectives in
     ―Section 2.1 Public Affairs Research and Analysis‖:
               1) greater awareness of developing trends in the media‘s coverage of DoD related events
               and policies; 2) alerts to . . . news that is growing from small localized coverage or blogs
               into national and international media coverage; 3) analysis of how the coverage reflects


7
 The first two contracts were awarded non-competitively under small business set aside programs. The third
contract was competitively awarded because Omnitech revenues had grown beyond the set-aside program.

                                                         22
DODIG-2012-025


           or fails to reflect the DoD‘s stated policies or views (as expressed by its spokespeople
           and other representatives); 4) historical perspective on how media coverage of issues has
           evolved over time; 5) compilations of data (e.g., how many news reports on given topics
           within a certain time period); and 6) locating specific news articles or broadcasts and
           providing copies thereof.
  The Scope of Work also stated: ―[t]he following is an illustrative (but not comprehensive)
  listing of products‖ and include ―… [a] compilation/analysis of coverage received by former
  DOD personnel now serving as military analysts to news organizations.‖

  Under the contract terms, the members of the Office of the Deputy ASD(PA) for Community
  Relations and Public Liaison would notify (verbal or email) the Contracting Officer‘s
  Representative (the Director of Media Analysis) to have Omnitec Solutions, Inc. compile a
  Public Affairs Research and Analysis (PARA) report on media commentary for a specified
  time period. The Director reviewed and edited for grammar and syntax before emailing the
  report to the requesting official or a predetermined recipient list. The Director estimated that
  RMA-related media analysis was about one percent of the contract total, but did not have the
  actual data.

  Our documents review included 48 PARA reports dealing with RMA commentary. The
  formats were not standard and the topics varied, e.g., media coverage analyzed on February
  1, 2005, ―Military Analyst Coverage Iraqi Elections,‖ and media coverage during January 31
  - February 5 2007, on ―General Petraeus‘ Round Table with Military Analysts.‖ Most PARA
  reports summarized RMA commentary during a specified time period, such as during
  evening news reports in the week(s) following a RMA travel event to the Guantanamo Bay
  Detention Facility.

  With respect to the RMAs who believed they were removed from the RMA program, we
  found various PARA reports summarizing their commentary during periods after they
  stopped attending RMA outreach activities—three reports for General McCaffrey, three for
  General Clark, two for LTG Christman, and five for LtCol Cowan. Overall, while some
  PARA reports included quotes or other specific identification attributing comments to
  individual RMAs, generally, they were summaries without comment or opinion regarding the
  content. In addition, our review did not produce any information that a DOD official took
  action, either favorable or unfavorable, against a RMA based on commentary analysis in a
  PARA report.

  The DOD policy in effect at the time did not specifically address media analysis. However,
  the current DODD 5122.05, ―Assistant Secretary of Defense for Public Affairs (ASD(PA)),‖
  September 5, 2008, specifically provides for establishing ― . . . a formal media analysis
  function to build greater awareness in developing trends, alert to breaking news, analyze
  media coverage of DOD policies and views, and compile data on coverage of DOD policies
  and views.‖ The contracts were consistent with these provisions.

  In its opinion (B-316443, July 21, 2009), GAO concluded that the DOD contracts to track
  RMA commentary and report on the media appearances, ― . . . [do] not violate the publicity
  or propaganda prohibition.‖ GAO further explained in its report:

                                                    23
DODIG-2012-025


         As a general matter, an agency may use appropriations to engage in information gathering and
         related activities such as analyzing media reports of agency programs, policies, and positions to
         further its legitimate interest in providing information to the public.


    Our findings are consistent with the GAO findings. The Department used media analysis as
    a tool ―to provide context about, or to make decisions on topics covered by various forms of
    media‖ and the use was not contrary to law, regulation, or policy. In addition, the
    information we reviewed did not indicate that the analytic results were used adversely to
    affect anyone‘s participation in the outreach activities.

    Access to Classified Information
    We identified two8 RMA outreach activities at which classified information was presented.

    Of the 63 RMAs interviewed, 10 thought they were given classified information during at
    least one event they attended. Based on the information the RMAs provided about the events
    and the topics covered, we identified five RMA outreach activities that potentially included
    classified information: three meetings at the Pentagon on October 31, 2002; January 10,
    2003; and October 3, 2007; and two travel events to the Guantanamo Bay Detention Facility
    on June 24 and July 12, 2005. The other RMAs that we interviewed who attended the five
    RMA outreach activities did not recall receiving classified information.

         October 31, 2002 Pentagon Meeting
         Of the 12 RMAs who attended this meeting, 2 thought they had been provided classified
         information. Both General Clark and Colonel Allard attended this meeting and the
         information is consistent with the subject of the meeting in which they told us they
         received classified information on the War on Terrorism and weapons of mass
         destruction. General (Ret.) Wesley Clark told us he ―thought‖ he received classified
         information concerning war planning or preparations at a meeting where General Myers
         was present. He could not recall specific classified information, only his impression that
         the information was classified. Colonel (Ret.) Kenneth Allard told us General (Ret.)
         Richard Myers, former Chairman, Joint Chiefs of Staff, briefed classified information at
         an event before the Iraq war began.9 General Myers provided an ―Update on the War on
         Terrorism;‖ and Mr. Jack D. Crouch, Assistant Secretary of Defense (International
         Security Programs) at the time, recalled his briefing on weapons of mass destruction.
         Both told us they did not brief classified information.




8
  We identified 147 RMA events.
9
  In his book ―Warheads, Cable News and the Fog of War,‖ Colonel (Ret.) Allard, wrote that General Richard C.
Myers, Chairman, Joint Chiefs of Staff, presented classified and sensitive information at a RMA event where he
appeared to ―. . . stress that the campaign plan was a good one and . . . had been thoroughly vetted and agreed to by
the Joint Chiefs . . . he talked about several things that were classified or sensitive and simply asked us to be
careful.‖

                                                         24
DODIG-2012-025


           January 10, 2003 Pentagon Meeting
           Of the 16 RMAs who attended this meeting, five thought they may have received
           classified information. One thought the information concerned war planning; two
           thought the information concerned weapons of mass destruction, and two could not
           remember the subject matter involved. The agenda for this meeting included topics
           involving Iraq, the war on terrorism, and weapons of mass destruction. The event
           briefers, Dr. John Yurechko, then Defense Intelligence Officer for Information
           Operations, Defense Intelligence Agency; and General Norton Schwartz, the then
           Director for Operations, Joint Staff (J-3), told us their briefing did not include classified
           information.

           October 3, 2007 Pentagon Meeting
           Of the six RMAs who attended this meeting, one told us that then LTG Raymond
           Odierno, Commander, Multi-National Corps-Iraq, briefed classified information at a
           Pentagon meeting. The RMA explained ―I‘m sure everything Ray Odierno told me was
           officially classified.‖

           General Odierno told us that the Office of the Secretary of Defense asked him to brief the
           military analysts. He did not recall the date, which staff members accompanied him to
           the briefing, or the specific information he briefed. However, he said he would have
           provided an overview of ongoing operations in Iraq to such a forum and the information
           would have been unclassified. Furthermore, he does not recall anyone announcing that
           the meeting was a classified meeting.

           June 24 and July 12, 2005 Travel Events to Guantanamo Bay
           Three RMAs told us they received classified information during the briefings at
           Guantanamo Bay Detention Facility. Two participated in the trip on June 24, 2005. The
           third participated in the trip on July 12, 2005. Ten RMAs participated in the June 2005
           trip and seven participated in the July 2005 trip. The information we obtained from the
           accompanying OASD (PA) representatives confirmed that individuals with security
           clearances were provided classified briefings during the two trips.

           Ms. Allison Barber, then Deputy ASD (PA) for Internal Communications/Public Liaison,
           confirmed that the initial trips involved classified information. When traveling to
           Guantanamo Bay in 2005,10 she said she learned that the Guantanamo Bay briefers
           treated the travelers differently based on whether they had a clearance and she stopped
           the classified briefings. She also said she thought it was inappropriate to separate RMAs
           into different groups and some received information they could not share. The trip
           itinerary included ― . . . Tour Camp V, View Interrogation (those with clearance).‖ The
           record was unclear whether her actions prevented classified briefings during the
           September 29, 2005 trip; however, no RMA who traveled to Guantanamo Bay on



10
     Our documentation showed Ms. Barber traveled with RMAs to Guantanamo Bay on September 29, 2005.

                                                      25
DODIG-2012-025


     September 29, 2005, or the three subsequent trips in 2006 told us they received classified
     information.

  In interviewing senior DOD officials such as the Secretary of Defense, we did not question
  them about individual events, but did ask them whether the RMA program involved
  classified information. The senior DoD officials told us they stayed away from using
  classified information in RMA outreach activities. One former ASD (PA) told us that using
  classified information would have been contrary to the intent of the RMA outreach activities,
  which was to share information with the public.

  DOD security directives permit releasing classified information to personnel who ―possess a
  valid and appropriate security clearance‖ and have a ―need to know‖ (See Appendix A). We
  did not review whether RMAs with security clearances had a ―need to know,‖ as that
  decision was the responsibility of the Commander, Joint Task Force Guantanamo, and
  outside our review scope.

  Access to Sponsored Travel Events
  In reviewing access to sponsored travel events, we looked at RMA travel and reviewed the
  applicable policy and requirements (see Appendix A). We also reviewed OASD (PA)
  documents relating to the travel and interviewed the personnel involved.

  In accordance with DOD 4515.13-R, ―Air Transportation Eligibility,‖ November 1994, with
  change 3, April 13, 1998, the ASD(PA) was authorized to approve travel or transportation for
  public affairs purposes, including travel for U.S. citizens who could make positive
  contributions to public understanding of DOD roles and missions. Travel that involved using
  military air transportation was subject to requirements in DODD 4500.56, ―DOD Policy on
  the Use of Government Aircraft and Air Travel,‖ March 2, 1997, and DODI 5435.2,
  ―Delegation of Authority to Approve Travel In and Use of Military Carriers for Public
  Affairs Purposes,‖ April 25, 1975. Specifically, this latter policy prohibited the Armed
  Forces from competing with commercial sea, air, or land transportation when that
  transportation existed, was adequate, and public affairs objectives could be accomplished
  through its use.

  In addition, the travel was subject to DODD 4500.54, ―Official Temporary Duty Travel
  Abroad,‖ May 1, 1991 (Certified current as of November 21, 2003). DODD 4500.54
  required ―non-DOD personnel traveling under DOD sponsorship, except members and
  employees of Congress‖ to obtain a ―theater clearance‖ from the Unified Commander and/or
  a ―country clearance‖ from the U.S. Embassy.

     RMA Travel
     OASD (PA) sponsored 11 RMA travel events: 5 to Iraq and 6 to the Detention Facility at
     Guantanamo Bay, Cuba. Thirty-one RMAs participated in these trips, with most
     participating in multiple trips. The RMA trips to Guantanamo Bay began in June 2005
     after Secretary Rumsfeld suggested the RMAs go there and see things for themselves.



                                             26
DODIG-2012-025


     Appendix C identifies the RMA travelers. Table 2 shows participation in the RMA
     sponsored trips based on documents included in our review.

     The 11 RMA travel events all involved using military carriers for public affairs purposes.
     The trips also involved traveling to areas under a Combatant Commander‘s control.
     While the ASD (PA) could approve the travel for public affairs purposes, the Combatant
     Commander was responsible for approving the transportation requests and issuing needed
     country and theater clearances. For each trip, we found that the OASD (PA) requested
     military aircraft support and theater clearances from the Combatant Commander who
     then approved the requests. Commercial air was not an option in traveling to Iraq or
     Guantanamo Bay, Cuba.

     For the first two and final trip to Iraq, each RMA paid for the round-trip airfare to Kuwait
     City. For the third and fourth trips, the OASD (PA) issued invitational travel orders for
     12 RMAs and at least one other outreach group representative who participated in the two
     trips, thereby directly funding their commercial travel costs. The invitational travel
     orders were permissible under ―The Joint Travel Regulations, Volume 2, Department of
     Defense Civilian Personnel,‖ July 1, 1965.

                           Table 2. Retired Military Analyst Travel
                             to Iraq and Guantanamo Bay, Cuba
                            Trips                    Travelers Per Event
                                                  RMAs Other* DOD Staff*
                 Travel to Iraq
                  September 22-25, 2003             10          6              3
                  January 9-12, 2005                 5          6              3
                  October 5-10, 2005                 6                         2
                  December 6-11, 2005                6                         3
                  September 14-19, 2006              4                         2
                    Total: 5 events
                 Travel to Cuba
                  June 24, 2005                     10                         5
                  July 12, 2005                      7                         3
                  Sep 29, 2005                       4                         3
                  June 21, 2006                      4          1              4
                  June 28, 2006                      5          1              5
                  August 31, 2006                    2          7              4
                    Total: 6 events
     *The ―Other‖ column includes other outreach group and/or general media representatives. The
     ―DOD Staff‖ column includes DOD officials and staff ―escorts‖ for the travel.




                                                  27
DODIG-2012-025


       Contractor Employee Travel
       We examined the travel funding authorized for a RMA who was also a contractor
       employee working on an Army contract. The contract duties did not relate to the RMA
       outreach activities. In addition, both the contractor employee and the government
       supervisor (Army Deputy Chief of Staff J3/5) told us that neither the time devoted to
       RMA outreach activities nor the costs involved in traveling and participating in the RMA
       outreach activities were passed on to the Army contract. The Joint Travel Regulation
       provides that invitational travel ―[m]ust not be authorized for . . . [c]ontractors . . . .‖
       However, in this case, the individual was not traveling as a contractor employee and the
       travel was unrelated to the contract.


   Access to High-Level Officials
   To assess the RMA access to high-level officials, we examined whether:

             other outreach groups were included, and how well the various media were
             represented at RMA outreach activities; and
             the access RMAs received complied with DOD policy.

   We also asked RMAs whether they thought they were given special access to high-level
   officials and senior DOD officials if they gave or intended to give RMAs special access to
   high-level officials. Of the RMAs asked:

       42 did not believe that the outreach activities gave them better access than what was
       available to the mainstream media;
       8 believed the outreach activities gave them better access; and
       9 did not have an opinion or did not recall participating in the outreach activities.

In general, they did not believe DOD intended to give, or actually gave, a RMA information not
available to the mainstream media. The eight RMAs who believed they were given access to
better or more information stated: (1) the RMAs could ask better questions and, therefore, elicit
better information; (2) the RMA outreach activities made it easier to collect information at one
time and location; (3) a general assumption that the information would be better—one RMA
advised he would not have attended otherwise; and (4) a general assumption that having the
opportunity to ask the Secretary of Defense and other senior DOD officials direct questions
would result in better information.

Similarly, we asked 14 OASD (PA) officials involved in managing the RMA outreach effort if
they believed RMAs were given better or more access to information. None said yes. However,
the more-senior officials believed that the mainstream media had better access. For example,
according to former ASD (PA) Ms. Victoria Clarke, ― . . . the first few months of the war, we
were providing more information . . . more access to the reporters than anybody else.‖ Based on
Ms. Clarke‘s testimony and the testimony of Generals Peter Pace and Richard Myers, former
Chairmen, Joint Chiefs of Staff, contacts with the press corps were much more frequent than
with the RMAs. One testified that the press corps briefings occurred once or twice weekly, and

                                                28
DODIG-2012-025


daily contacts with them were in the hundreds. According to Ms. Clarke, the ―Pentagon press
corps could and did walk freely throughout the building. They could go everywhere . . . they
could talk to . . . people in the hallways . . . [t]hey could talk to them . . . in the stairs . . . [t]hey
were perfectly free and . . . willing to do that . . . there was no cordoning.‖

Secretary Rumsfeld told us ―[m]y staff checked, and I think we had maybe over 6 years,
15 meetings with them [RMAs] . . . . I had hundreds of meetings with all kinds of groups.‖
Similarly, former Chairman, General Pace told us that in over the 6 years he was Chairman and
Vice Chairman, he could recall only ―three or four times, max‖ that he met with smaller groups
other than the regular open sessions with the press. However, General Pace said that he did
something with the press a couple of times a week to ―make ourselves available to them and
answer . . . their questions.‖

Other testimonies also supported this position. For example, a former OASD (PA) employee
told us the access given to RMAs might be considered ―extraordinary‖ to some, but not to ―. . .
members of the media who travel and spend . . . ten days on the road with the Secretary of
Defense . . . .‖ Similarly, a former Community Relations director told us usually what happened
when a General was in from Iraq, or the Pentagon was announcing new troop strategy or
releasing a report, they would ―blast that out‖ to the RMAs telling them ―[i]f you want to talk to
General so-and-so who is going to be available here at the Pentagon [and] right after . . . his . . .
press briefing, [he would] walk across the hall and get on the phone and call the analysts, who
can‘t get into the Pentagon in many cases . . . . They have less access than the reporters. . . .‖

Principal Deputy ASD (PA) Mr. Bryan Whitman told us that RMA access was special in the
sense that ―we wouldn‘t take people off the street and . . . let them talk to the Secretary of
Defense . . . they were invited in because of who they were . . . they were provided some special
access . . . because of what they were doing, what they all had in common professionally.‖
Otherwise, Mr. Whitman said that he never saw ―any sort of special treatment.‖ In addition, he
said that ―nobody was authorized to give the RMAs more than what they gave the general
media.‖

Our review established that separate OASD (PA) operations granted and controlled access to
media personnel and outreach groups, including RMAs. The Deputy ASD (PA) for Media
Operations controlled all media access. The Deputy ASD (PA) for Internal
Communications/Public Liaison controlled all outreach group access. However, testimony
indicated that the press corps received the same information as the RMAs.

    In addition, based on our review, other outreach groups received the same access to DOD
    officials and information as the RMAs. In fact, almost one-third of the RMA outreach events
    (47 of 147 events) included representatives from other outreach groups and/or the
    mainstream media. Of the 147 RMA outreach events, 20 involved the Secretary of Defense
    and/or the Chairman, Joint Chiefs of Staff; more than a third of these events (8 out of
    20) included representatives from other outreach groups. For example, in one event only one
    RMA attended a luncheon for journalists with the Secretary.



                                                     29
DODIG-2012-025


OASD (PA) actions regarding RMA outreach were consistent with the DODD 5122.5
requirement to ensure a free flow of news and information to the ―news media, general public . . .
and the other applicable . . . [forums].‖




                                               30
DODIG-2012-025



B. Did RMAs Have Defense Contractor Affiliations, and If So,
  Did They Benefit Financially From Participation in the RMA
  Outreach Activities?
Our objective was to determine whether the RMA outreach participants had ties to Defense
contractors, and if so, whether the affiliation presented some benefit to the participants. To
determine this, it was necessary to accomplish two things. First, analyze which laws and
regulations were applicable to the participants under the circumstances, and second, identify
RMA outreach participants with Defense contractor affiliations during the time they participated
in RMA outreach events. We used the Joint Ethics Regulation definition of ―Defense
Contractor‖ to determine RMA contractor affiliation:
       Any individual firm, corporation, partnership, association, or other legal non-Federal entity that
       enters into a contract directly with DoD or a DoD Component to furnish services, supplies, or
       both, including construction. Subcontractors are excluded unless they are separate legal non-
       Federal entities that contract directly with DoD or a DoD Component in their own names.
       Foreign governments or representatives of foreign governments that are engaged in selling to
       DoD or a DoD Component are defense contractors when acting in that context.
This includes all legal ―non-Federal entities,‖ including not for profit agencies that have
contracts with DOD. Additionally, we defined an ―affiliation‖ as any contractual arrangement
between a defense contractor and a participant in RMA outreach activities to include officers,
board members, employees, or consultants.

No specific standard prohibits participants in RMA outreach activities from having Defense
contractor affiliation(s). In a May 9, 2008, response to issues in the New York Times article, the
Director, DOD Standards of Conduct Office (SOCO) stated that a RMA outreach participant
with Defense contractor affiliation(s) does not violate Federal ethics requirements:
       . . . our initial analysis is that even if such conflicts exist, they do not implicate the Federal
       ethics statutes or DoD regulations implementing those statutes that apply to Government
       employees. Financial conflicts of interest in this context would be a matter between the
       military analyst and his or her nongovernment employer.

Contractor Affiliation(s)
We found that 43 RMAs had an affiliation with one or more Defense contractors during the time
they participated in the RMA outreach (see Appendix C). In reaching our determination, we
relied primarily on the RMA interviews. We also reviewed personnel security background
investigations and other government indices in arriving at our determinations for those we
interviewed and those we did not interview (see Scope and Methodology for more details).

Conflict of Interest/Financial Benefit.
We asked 35 of the 43 RMAs with Defense contractor affiliations whether the information
presented during RMA outreach events gave them an opportunity to pursue new business, and




                                                       31
DODIG-2012-025


whether they benefited financially from the information. Thirty-four11 RMAs told us they did
not use the information to identify new business opportunities and did not otherwise benefit
financially from the information. They indicated they did not suggest a new DOD contract
requirement and did not benefit from DOD initiating a procurement action based on anyone
identifying such a new requirement.

Our document review did not identify financial benefits. Since the documentation came
primarily from OASD (PA), we questioned the public affairs members on the contractor
affiliation issue. Except for RMAs who owned the companies involved, we did not interview the
Defense contractors or government contracting officials.

We also inquired into the circumstances involving Major General James Marks, LtCol William
Cowan, and Mr. Carlton Sherwood who were mentioned in the New York Times article.
Although General Marks concurrently worked for a Defense contractor, we found no basis to
conclude that General Marks used the RMA program to pursue DOD contracts. He attended two
RMA outreach activities during a contract process that ultimately resulted in an award to the
company he worked for. Based on the timing of the events and the subject of the events, we
concluded it was unlikely he or the company would have benefited from the RMA outreach
activities. We found that LtCol Cowan took advantage of being in Iraq for the September 2003
RMA-sponsored travel event to attempt to speak to a government official on non-RMA matters.
Such activities are not contrary to law or regulation. Also, based on our interview, he did not
benefit financially from the activities. As for Mr. Sherwood, he was not involved in the efforts
to develop business in Iraq.

OASD (PA) had no policy to govern RMA outreach participation for RMAs with Defense
contract-related interests. Of the 40 current and former DOD employees we interviewed
regarding RMA-Defense contractor affiliations, only two knew of RMAs with Defense
contractor affiliations.

There are potentially many other tangible and intangible benefits that an RMA may have gained
from the being a part of the RMA outreach activities. This review only addressed the potential
benefit to the contractor or the RMA by way of the contractor affiliation.




11
     One individual‘s answer was ambiguous.

                                              32
DODIG-2012-025



CONCLUSIONS
RMA outreach activities were part of the DOD community outreach program to increase public
awareness and understanding of DOD and the Military Departments, including their missions,
activities, policies, and requirements.

RMA Outreach Activities Purpose and Operations
The RMA outreach activities were consistent with DOD directives and regulations outlined for
the community relations program and the implementation of those activities was not inconsistent
with law or regulation. Although we had to rely largely on interviews, we found the intent of the
RMA outreach activities was to provide information to the public through former military
members, as credible third party subject matter experts. In implementing the RMA outreach
activities, we found that OASD (PA) included a reasonable cross section of media outlets based
on our analysis of the in-Pentagon meetings and the travel events. In addition, OASD (PA) used
media analysis contracts to provide information to OASD (PA) and other relevant DOD officials
for analyzing media reports of agency programs, policies or positions of interest to the DOD.
There was no specific policy that addressed media analysis during the time of the RMA outreach
activities. However, the DOD Directive governing operations of the OASD (PA), issued after
the RMA outreach activities ceased, provides for a media analysis function to build greater
awareness of trends, breaking news and media coverage of DOD policies and views.

RMAs that we interviewed identified five events, which they believed contained classified
information. We found that RMAs with security clearances were included in classified briefings
at the first two of the five events at Guantanamo Bay; such briefings were under the purview of
the Guantanamo Bay officials. However, when identified, OASD (PA) stopped the practice
because classified information was inconsistent with the purpose of the RMA outreach activities.
Based on testimonial evidence, we did not find that classified information was included in the
other RMA outreach activities. DOD security directives permit releasing classified information
to personnel who ―possess a valid and appropriate security clearance‖ and have a ―need to
know.‖ We did not review whether RMAs with security clearances had a ―need to know,‖ as
that decision was the responsibility of the Commander, Joint Task Force Guantanamo, and
outside our review scope.

RMAs made 11 trips paid, at least in part, by DOD: five to Iraq and six to Guantanamo Bay.
DOD provided military air transportation to the RMAs in accordance with DOD policies and
procedures and provided round trip commercial air cost for two of the trips between Virginia and
Kuwait. Five of the 11 trips included other outreach group representative(s) or media. For the
OASD (PA) sponsored trips, military air was provided from Kuwait into Iraq and from Andrews
Air Force Base to Guantanamo Bay. All OASD (PA) sponsored trips used military air into Iraq
and Guantanamo Bay. OASD (PA) used invitational orders to cover commercial flights into
Kuwait for two of the five Iraq trips but the RMAs were responsible for getting to Kuwait for the
other three trips.

As commented by the Principal Deputy ASD (PA), RMA access was special in that not just
anyone could meet with the Secretary of Defense. However, the majority of RMAs we spoke to

                                               33
DoDIG-2012-025




as well as the DOD officials did not believe that the access to senior officials was more than that
afforded the mainstream media. In fact, the more senior officials told us they believed that the
mainstream media had better access. This is supported by the fact that approximately one third
of the RMA outreach activities, including the Pentagon meetings and the travel events, included
representatives from other outreach groups or media. Even those few RMAs who believed they
had better access did so from the perspective that their experience and knowledge as former
military members gave them a better understanding of defense issues. However, on two of the
trips to Guantanamo Bay, RMAs with security clearances were given a classified briefing that
the RMAs without a security briefing were not given. Therefore, with the exception of the two
classified briefings, RMA access to senior officials, travel, and classified briefings was not
special or different related to the other outreach groups or mainstream media.

Although the RMA outreach activities were consistent with public affairs policies, we found that
the OASD (PA) lacked a clear plan or stated purpose for the RMA outreach activities that
defined the overall purpose of the specific RMA outreach activities and guided selection and
removal from the program. For example, a draft memorandum defined “TV Pundits” as retired
military officers turned commentators for news and cable networks; this definition of RMA
outreach activities was consistent with what we heard from both the current and former DOD
officials and the RMAs that we interviewed. However, of the 74 RMAs we identified, only 53
had a media affiliation. For purposes of this review, we used a broad definition of media
affiliation to include RMAs who were affiliated with television outlets such as CBS, NBC and
FOX; some print media; and organizations, such as the Heritage Foundation. We included in the
review former military members who participated in the RMA outreach activities but who left
the military before qualifying for retirement. However, some of those who were part of the
RMA outreach activities had no affiliation with a media outlet. Some of the RMAs were not
aware they were part of the organized RMA outreach efforts. A preponderance of evidence
indicates one of the 74 RMAs stopped receiving invitations because he was a critic. However,
another, who thought he stopped receiving invitations because he was a critic, continued to
receive invitations to activities after he was no longer affiliated with a media outlet.

RMA Contractor Affiliations
 Forty three of the RMAs had some affiliation with a Defense contractor. However, in their
capacity as participants in RMA outreach events, the former military members were not
representing a contractor to government officials; therefore, the conflict of interest rules do not
apply. As stated in the SOCO opinion, any financial conflict of interest would be a matter
between the military analyst and his or her nongovernment employer. Since there was no
specific prohibition or other records specifically related to identifying the RMA outreach
participants’ involvement or activities they may have engaged in relative to the contractor, we
based our conclusions on our interviews with the RMA outreach participants. We also reviewed
the specific examples mentioned in the New York Times article. Based on our interviews, we did
not find that the RMA outreach participants used the RMA outreach activities to further their
own or the affiliated Defense contractor’s interests. In one case, we found that an RMA took
advantage of a DOD sponsored trip to conduct non-RMA business. However, we noted that the
individual had made previous such trips unrelated to RMA outreach activities. We also inquired


                                                34
DODIG-2012-025


into one participant, who also worked for a Defense contractor and found there was no conflict
of interest or violation of any rule or regulation.

The RMA outreach group was one of many different OASD (PA) outreach groups. Without a
clear definition of the RMA group purpose, events and participants, our assessment necessarily
depended to a large extent on testimonial evidence and our professional judgment in identifying
participants, events, and operations. A former Principal Deputy ASD (PA) told us that he had
looked for a plan or a strategy when the NY Times article was published; he was unsuccessful.

In our opinion, OASD (PA) should have an internal operating plan or guidance for activities such
as the RMA outreach activities that clarifies the purpose of the specific group, who will be part
of a group, the criteria for who will be invited or not to particular events, and what type of
information (such as classified) will be provided based on the purpose of the group. Such an
internal operating procedure will provide more clarity and transparency for future such programs
and may avoid potential misunderstandings.

RECOMMENDATION
We recommend that the Assistant Secretary of Defense (Public Affairs), in consonance with
DoD Directive 5122.5, ―Assistant Secretary of Defense for Public Affairs (ASD (PA),‖
September 27, 2000, paragraph 3.1, develop a plan for groups such as the retired military
analysts that clearly defines the outreach group, including its purpose, its make-up, and the
nature of its activities.

MANAGEMENT COMMENTS AND OUR
RESPONSE
The Principal Deputy Assistant Secretary of Defense (Public Affairs) concurred with the report
findings and recommendation stating they will incorporate the guidance recommended if and
when they engage in this specific type activity in the future. The comments are included at the
end of this report. However, the comments are not fully responsive to the recommendation. To
fully implement the recommendation, OASD (PA) should document the internal operating
procedures or management controls that will provide and ensure outreach groups have a clearly
defined purpose, group membership, the nature of the activities, and what type of information
will be provided, such as classified, for existing groups that might have issues similar to those of
the RMAs. This is especially critical for those outreach groups, like the RMA group, that have
representatives with multiple roles, such as media and contractor affiliation. Such internal
operating procedures and controls will enhance transparency and avoid misunderstandings and
misperceptions. We ask that you provide additional comments by January 9, 2012 to clarify
action to be taken.




                                                 35
DODIG-2012-025




                 36
DODIG-2012-025




Appendix A. Examples of Outreach Groups
The DoD Community Outreach Program produced up to as many as 32 different outreach groups
since its existence. Examples of the different outreach groups are:

            ―The Formers‖ (e.g., former Secretaries of Defense, State, Treasury, and Interior;
            former National Security Advisors; and former Directors of Central Intelligence)
            ―Civilian Defense Experts‖ (e.g., from the Center for Security Policy Council on
            Foreign Relations, National Defense University, Heritage Foundation, Democratic
            Leadership Council, Colleges and Universities, and Carnegie Endowment for
            International Peace)
            ―Religious Leaders‖ (e.g., from the Center for Religious Freedom, American Jewish
            Committee, and Islamic Center of America)
            ―Opinion Communicators‖ (e.g., from the Democratic Leadership Council -
            Progressive Policy Institute, and the German Marshall Fund of the United States)
             ―Good Government‖ (e.g., from OMB Watch, Citizens for a Sound Economy,
            National Taxpayers Union, Project on Government Oversight, and Jewish Institute
            for National Security Affairs)
            ―Women‘s Groups‖ (e.g., from the National Asian Pacific American Women‘s
            Forum, General Federation of Women‘s Clubs, and Women in Government
            Relations)
            ―Veteran Service Organizations‖ (e.g., from the American Legion, Veterans of
            Foreign Wars, and Blue Star Mothers of America)
             ―Labor Leaders‖ (e.g., from International Union of Operating Engineers,
            representatives from chapter(s) of the International Brotherhood of Teamsters,
            International Longshoremen‘s Association, and International Association of
            Machinists)
            ―JCOC Alumni‖ (individuals who completed a Joint Civilian Orientation
            Conference, which DoD sponsors twice annually for individuals interested in
            learning more about DoD programs and issues)




                                             37
DoDIG-2012-025




Appendix B. Relevant Policy and Requirements
The directives, instructions and other policies are those that were in place during 2002-2008
when RMA outreach activities occurred. They may have been updated since.

RMA Outreach Activities Purpose and Intent
DODD 5122.5, “Assistant Secretary of Defense for Public Affairs (ASD (PA)),”
September 27, 2000. Provides ASD (PA) is the principal staff assistant and advisor to the
Secretary and the Deputy Secretary of Defense for DOD news media relations, public
information, internal information, community relations, public affairs and visual information
training, and audiovisual matters and shall:
       3.1. Develop policies, plans, and programs in support of DOD objectives and operations.
       3.2. Ensure a free flow of news and information to the news media, the general public, the
       internal audiences of the Department of Defense, and the other applicable form, limited only by
       national security constraints as authorized by Executive Order 12958 (reference (c)) and valid
       statutory mandates or exemptions. Enclosures 2 [Principles of Information] and 3 [Statement of
       DOD Principles for News Media Coverage of DOD Operations] delineate principles that guide
       the Department regarding public access to information and media coverage of DOD activities.
       Principles of Information
       It is Department of Defense policy to make available timely and accurate information so that
       the public, the Congress, and the news media may assess and understand the facts about
       national security and defense strategy. Requests for information from organizations and private
       citizens shall be answered quickly. In carrying out that DOD policy, the following principles of
       information shall apply:
               a. Information shall be made fully and readily available, consistent with statutory
               requirements, unless its release is precluded by national security constraints or valid
               statutory mandates or exceptions. The Freedom of Information Act will be supported
               in both letter and spirit.
               b. A free flow of general and military information shall be made available, without
               censorship or propaganda, to the men and women of the Armed Forces and their
               dependents.
               c. Information will not be classified or otherwise withheld to protect the Government
               from criticism or embarrassment.
               d. Information shall be withheld when disclosure would adversely affect national
               security, threaten the safety or privacy of U.S. Government personnel or their families,
               violate the privacy of the citizens of the United States, or be contrary to law.
               e. The Department of Defense‘s obligation to provide the public with information on
               DoD major programs may require detailed Public Affairs (PA) planning and
               coordination in the Department of Defense and with the other Government Agencies.
               Such activity is to expedite the flow of information to the public; propaganda has no
               place in DOD public affairs programs.
DODD 5400.13, “Joint Public Affairs Operations,” January 9, 1996 (Certified Current as
of November 21, 2003). (In effect throughout the period involved in our review.) Established



                                                      38
DODIG-2012-025


policy and assigned responsibilities for conducting public affairs programs supporting ―joint,
combined, and unilateral military operations‖ (i.e., effectively, all military operations). Provides:
       3.1. It is DOD policy. . . that Commanders and Heads of the DoD Components involved in
       joint, combined, and unilateral military operations shall plan for, resource, and conduct public
       affairs activities to support such missions.
       3.2. In implementing the DoD Principles of Information, the Combatant Commanders shall
       grant the news media, both civilian and military, access to unclassified joint, combined, and
       unilateral operations, consistent with operations security and prevailing public affairs guidance
       (PAG). Concern over the personal safety of journalists shall not be a factor in deciding the
       degree of access . . . .
       4.1.1. [The ASD (PA) shall] Retain primary responsibility for the consistent implementation of
       DOD information policy in this Directive and in DoD Directive 5122.5. . . .
       4.1.8. [The ASD (PA) shall] Conduct periodic news briefings on issues and events about
       ongoing joint, combined, and unilateral operations. . . .
DODD 5410.15, “DOD Public Affairs Assistance to Non-Government, Non-Entertainment-
Oriented Print and Electronic Media,” March 28, 1989. DOD policy is that government
assistance in the form of access to DOD installations, equipment or personnel for interviews,
photo and video opportunities, and the use of unclassified government-produced materials shall
be provided to non-government, electronic, and print media when it is considered beneficial to
the Department of Defense or in the national interest to do so. Paragraph E1.1.6. defines the
term ―Non-Government Electronic and Print Media‖ as:
        Organizations outside the Federal Government including foreign media and production
       organizations involved in the production of non-entertainment print, and VI and AV
       productions including electronic news media, industrial firms, advertising agencies, publishers,
       independent producers, educational institutions, and other commercial enterprises. The
       definition does not include entertainment-oriented productions addressed in DoD
       Instruction 5410.16 (reference (c)). . . .
DODD 5410.18, “Public Affairs Community Relations Policy,” November 20, 2001,
[Certified Current as of May 30, 2007]. Establishes policy for conducting public affairs
community relations activities and programs throughout the Department of Defense. Assigns
authority, responsibilities, and delineates command relationships for community relations
activities and procedures. Defines ―Community Relations‖ as ―The interactions between the
Department of Defense and civilian communities at home and abroad at all levels.‖ Defines
―Community‖ as ―a group of people having common interests. Normally refers to a geographic
location, such as a town, city or nation, or to a representative interest group, such as an
organization or an association.‖ Defines ―Community Relations Activity‖ as ―Any officially
planned program, sequence or series of events, or individual action by a DOD Component, unit, or
person designed to achieve and maintain good relations with an element of the civilian community or
the community at large. Community relations activities are conducted at all levels of command, both
in the United States and overseas, on or off military installations . . . .‖ Provides:
       2.2. Encompasses all DOD community relations activities regardless of name, activity, or
       sponsorship. . . .
       4.1.1. Community Relations Concept. It is DOD policy under DoD Directive 5122.5 (reference
       (b)) that fostering and furthering good relations with communities at home and abroad is in the
       best interest of the Department of Defense. Well-planned community relations programs help



                                                       39
DODIG-2012-025


      earn public support and understanding of operations, missions, and requirements of the Military
      Services.
      4.1.1.1. A principal goal of all community relations activity is to increase understanding of the
      mission of the Department of Defense and the U. S. defense posture and capabilities by
      increasing public exposure to, and understanding of, military personnel, facilities, equipment,
      and programs. . . .
      4.1.3. Community Relations Objectives. Community relations activities implemented by DOD
      Component commands and organizations shall support the following objectives:
      4.1.3.1. Fostering and sustaining good relations on mutually acceptable terms with the many
      elements of the public, at home and abroad, on which the Military Services depend for support
      and cooperation.
      4.1.3.2. Supporting the equal opportunity goals of the Department of Defense with emphasis on
      the dignity and worth of each individual. . . .
      4.1.3.4. Increasing public awareness and understanding of the Department of Defense and the
      Military Services, including their missions, activities, policies, and requirements. . . .
      4.2.3. Common Interest of the Community. Community relations support must be confined to
      those activities that are of common public interest and benefit to a local, State, regional,
      national, or broadly representational community, unless support is specifically authorized by
      statutes or E.O.s.
      4.2.3.1. Nonpartisan patriotic events open to the general public usually are of common interest
      and benefit.
      4.2.3.2. Events where attendance is only by invitation may also be considered to be of
      common interest and benefit if invitations are extended to a cross section of a broad
      community, as defined in enclosure 2 (E2.1.4., ―Community‖). For example, an association
      convention representing an entire industry could be considered of common interest. A meeting
      of representatives from only one organization, firm, or business in that industry, however, shall
      not be considered of common interest. (Emphasis Added)
      4.2.3.3. Nonpartisan events sponsored by local, State, or Federal governments; schools; civic
      organizations; veterans associations (see paragraph 3.16., ―Veterans Association,‖ above); or
      recognized organizations whose primary purpose is to foster public service, stimulate
      patriotism, promote understanding of national security issues, or foster public appreciation of
      our national heritage are generally considered to be in the common public interest.
DODI 5410.19, “Public Affairs Community Relations Policy Implementation,” November
13, 2001. Implements policy, delineates command relationships for community relations
activities and procedures, and prescribes procedures under DODD 5410.18 for conducting
public affairs community relations activities and programs throughout DOD. Provides:
      . . . The Department of Defense and the Military Services are public institutions. They belong
      to the American people and exist to serve them. DOD facilities and personnel are located in
      every State and numerous countries overseas. American communities are the source of most
      DOD personnel recruitment and materiel procurement. Well-planned community relations
      programs help earn public support and understanding of operations, missions, and requirements
      of the Military Services . . . . A principal goal of all community relations activity is to increase
      understanding of U.S. defense posture and capabilities by increasing public exposure to, and
      understanding of, military personnel, facilities, equipment, and programs




                                                       40
DODIG-2012-025




Access to High-Level Officials and Information
DODD 5122.5, “Assistant Secretary of Defense for Public Affairs (ASD (PA)),”
September 27, 2000. Updates ASD (PA) responsibilities, functions, relationships, and
authorities. Provides ASD (PA) shall:
       3.2. Ensure a free flow of news and information to the news media, the general public, the
       internal audiences of the Department of Defense, and other applicable fora. . . .
DODD 5410.18, “Public Affairs Community Relations Policy,” November 20, 2001,
[Certified Current as of May 30, 2007]. Establishes policy for conducting public affairs
community relations activities and programs throughout DOD. Assigns authorities and
responsibilities, and delineates command relationships for community relations activities and
procedures. Provides community relations activities implemented by DOD component
commands and organizations shall support:
       4.1.3.4. Increasing public awareness and understanding of the Department of Defense and the
       Military Services, including their missions, activities, policies, and requirements . . . .
       4.2.3. Community relations support must be confined to those activities that are of common
       public interest and benefit to a local, State, regional, national, or broadly representational
       community . . . . (Emphasis Added)
               4.2.3.2. Events where attendance is only by invitation may also be considered to be of
               common interest and benefit if invitations are extended to a cross section of a
               broad community. For example, an association convention representing an entire
               industry could be considered of common interest. A meeting of representatives from
               only one organization, firm, or business in that industry, however, shall not be
               considered of common interest . . . . (Emphasis Added)
       4.2.9. Community relations activities shall not support, or appear to support, any event that
       provides a selective benefit to any individual, group, or organization. When DoD support is
       provided to one non-Federal entity, the DoD Component commands or organizations providing
       such support must be able and willing to provide similar support to comparable events
       sponsored by similar non-Federal entities. (Emphasis Added)
DODI 5410.19, “Public Affairs Community Relations Policy Implementation,” November
13, 2001. Implements policy, delineates command relationships for community relations
activities and procedures, and prescribes procedures under DODD 5410.18. Requires ASD (PA)
to:
       5.1.12. Conduct programs at the Pentagon, such as tours and briefings that help explain to
       various international and national communities the missions, operations, and
       requirements of the Department of Defense and the DoD Components. (Emphasis Added)




                                                     41
DODIG-2012-025



Access to Classified Information
Executive Order 12958, “Classified National Security Information,” April 17, 199512.
Prescribes a uniform system for classifying, safeguarding, and declassifying national security
information. Information may be ―originally‖ classified only if all of the following conditions
are met:
           (1) an original classification authority is classifying the information;
           (2) the information is owned by, produced by or for, or is under the control of the United States
           Government;
           (3) the information falls within one or more of the following categories
               (a) military plans, weapons systems, or operations;
               (b) foreign government information;
               (c) intelligence activities (including special activities), intelligence sources or methods, or
           cryptology;
               (d) foreign relations or foreign activities of the United States, including confidential
           sources;
               (e) scientific, technological, or economic matters relating to the national security;
               (f) United States Government programs for safeguarding nuclear materials or facilities; or
                (g) vulnerabilities or capabilities of systems, installations, projects or plans relating to the
           national security; and
           (4) the original classification authority determines that the unauthorized disclosure of the
           information reasonably could be expected to result in damage to the national security and the
           original classification authority is able to identify or describe the damage.


DOD 5200.1-R, “Information Security Program,” January 14, 1997. All DOD personnel are
personally and individually responsible for properly protecting classified information under their
custody and control. Persons shall be allowed access to classified information only if they
possess a valid and appropriate security clearance, have executed an appropriate non-disclosure
agreement and have a valid need for access to the information to perform a lawful and authorized
governmental function. No person may have access to classified information unless that person
has been determined to be trustworthy and access is essential to accomplishing a lawful and
authorized government purpose. The final responsibility for determining whether an individual‘s
official duties require possession of or access to any element or item of classified information,
and whether the individual has been granted the appropriate security clearance by proper
authority, rests with the individual who has authorized possession, knowledge, or control of the
information and not on the prospective recipient. When necessary in the interests of national
security, Heads of DOD Components, or their Senior Agency Official, may authorize access by
persons outside the Federal Government, other than those enumerated above, to classified
information upon determining that the recipient is trustworthy for the purpose of accomplishing a


12
     Subsequently revoked by Executive Order 13526, Classified National Security Information, December 29, 2009.

                                                             42
DODIG-2012-025


national security objective; and that the recipient can and will safeguard the information from
unauthorized disclosure.

DODD 5200.2, “DoD Personal Security Program,” April 9, 1999. Applies to DOD civilian
personnel, members of the Armed Forces (excluding the Coast Guard in peacetime), contractor
personnel, and other personnel affiliated with DOD. DOD policy is no person shall be deemed
eligible for access to classified information unless such access is clearly consistent with the
interests of national security as provided for in Executive Order 12968. Eligibility for access
shall not be granted merely by reason of Federal service or contracting, licensee, certificate
holder, or grantee status, or as a matter of right or privilege, or as a result of any particular title,
rank, position, or affiliation. DOD 5200.2-R shall identify those positions and duties that require
a personnel security investigation.

Access to Sponsored Travel Events
The Joint Travel Regulations, Volume 2, Department of Defense Civilian Personnel, July 1,
1965. Govern per diem, travel and transportation allowances, relocation allowances, and certain
other allowances involved when DOD funds DOD employee or civilian travel. Invitational
travel is used in authorizing civilian (nonemployee) travel related directly to, or in connection
with official DOD activities. Travel and transportation allowances authorized for these
individuals are the same as those ordinarily authorized for DOD employees on temporary duty
assignment (TDY). Invitation travel also may be authorized when it is in the involved DOD
component‘s interest to invite a college or university official, or industry representative, to
observe the work performed by, or the operations of, a DOD activity.

DOD 4515.13-R, “Air Transportation Eligibility,” November 1994 (Administrative
Reissuance Incorporating Through Change 3, April 9, 1998). Implements DOD policy on
using DOD-owned or DOD-controlled aircraft. Establishes criteria for passenger and cargo
movement on such aircraft. Defines ―Public affairs travel‖ as ―any travel or transportation of
individuals, groups, or materiel undertaken as a result of a request to or an invitation from, and
authorized by, an approving authority in the interest of adding to the public understanding of
DOD activities.‖
        C2.2. ELIGIBLE PASSENGERS
        C2.2.7. Invited Travelers
        C2.2.7.1. Non-Federal employees acting as technical advisors to DOD Component authorities.
        C2.2.7.2. For other approved invitational travel, refer to the Joint Travel Regulation Volume 1,
        and Volume 2 (references (b) and (c)).
        C3.1. GENERAL
        ―Public affairs travel‖ is defined as ―any travel or transportation of individuals, groups, or
        materiel undertaken as a result of a request to or an invitation from, and authorized by, an
        approving authority in the interest of adding to the public understanding of DOD activities.‖ It
        includes travel or transportation involving individuals or things, military or civilian,
        Government or non-Government, U.S., or foreign requests. Travel may be local or nonlocal,
        point-to-point or public affairs orientation, reimbursable or nonreimbursable. Travel authorized
        for public affairs purposes must reflect the following considerations:

                                                       43
DODIG-2012-025


             C3.1.1. It shall not compete with U.S. flag commercial sea, land, or air transportation
             when that capability exists, is adequate, and when public affairs objectives may be
             obtained through use of commercial transportation.
             C3.1.2. Travel or transportation for public affairs purposes must be determined to be
             primarily in the interest of the Department of Defense. . . .
     C3.3. RESPONSIBILITIES
             C3.3.1. The Assistant to the Secretary of Defense for Public Affairs (ATSD (PA)) is
             responsible for approval of travel or transportation by DoD-owned or –controlled
             aircraft for public affairs purposes arranged by any Agency or command of the
             Department of Defense, jointly with, or at the request of, another Federal Department,
             Agency, or foreign government on a reimbursable basis. The ATSD (PA) shall also
             review and authorize all requests for nonlocal public affairs travel for news media
             representatives.
             C3.3.2. The Commanders at all echelons are authorized to grant approval for local
             travel or transportation for public affairs purposes wholly within the scope of the
             mission and responsibilities of their respective command subject to the following
             conditions:
                      C3.3.2.1. The public affairs subject matter is not properly the responsibility of
                      a higher command.
                      C3.3.2.2. The public interest in the public affairs purpose involved is confined
                      primarily to the mission and vicinity of that command.
                      C3.3.2.3. The travel is being provided for the benefit of local media or
                      individuals other than local media who are a part of an approved local public
                      affairs activity, including community relations programs that meet a military
                      public affairs objective.
             C3.3.3. Authority for individuals other than news media representatives to use DoD-
             owned or -controlled aircraft for nonlocal travel for public affairs purposes may be
             exercised by the following:
                      C3.3.3.1. The commanders of the Combatant Commands for public affairs
                      programs in their command responsibility. These commanders shall not
                      delegate this authority below their Component commanders.
                      C3.3.3.2. The Secretaries of the Military Departments and directors of
                      Defense Agencies for public affairs programs other than those of the
                      Combatant Commands.
                      C3.3.3.2.1. Delegation of this authority, if deemed appropriate by the
                      Secretaries, shall be no lower than the Chief, National Guard Bureau,
                      commanders of Army areas, Naval-type commanders, and the USAF major
                      commands.
                      C3.3.3.2.2. When units or areas of the joint-command structure are involved,
                      coordination shall be effected with the appropriate commander-in-chief, as
                      specified in paragraph C3.3.3.1., above.


     C3.4. ELIGIBLE CATEGORIES OF TRAFFIC
     The following are examples of public affairs activities which may qualify for travel in DoD-
     owned or controlled aircraft.




                                                     44
DODIG-2012-025


               C3.4.1. Travel of Bona Fide Representatives of News Media. Individually, or in
               groups, for assignments to cover military exercises or military operations.
               C3.4.2. Invitational and Other Authorized Travel. Transportation in support of
               approved public affairs activities, including community youth programs, civic leader
               tours, and conferences sponsored by the Department of Defense.
               C3.4.3. Tours and Other Public Affairs Activities. Arranged jointly with other Federal
               Government Departments or Agencies, or with a foreign government.
               C3.4.4. Public Affairs Orientation. U.S. citizens who, because of position and contacts
               with various public organizations, can make positive contributions to public
               understanding of the roles and missions of the Department of Defense. The flight must
               be accomplished within allocated flying hour funding, and passengers must be
               carefully selected to ensure that the greatest benefit to understanding DoD missions
               shall result from such orientation flights.
DODD 4500.54, “Official Temporary Duty Travel Abroad,” May 1, 1991, Certified
Current as of November 21, 2003.
      1. REISSUANCE AND PURPOSE
      This Directive:
      1.1. Reissues and updates reference (a) to clarify and outline general policies governing official
      temporary duty travel abroad.
         1.2. Authorizes the publication of DoD 4500.54-G, "DoD Foreign Clearance Guide
      (FCG)."
      2. APPLICABILITY AND SCOPE
      This Directive:
      2.1. Applies to the Office of the Secretary of Defense (OSD); the Military Departments
      (including their National Guard and Reserve components); the Chairman of the Joint Chiefs of
      Staff and the Joint Staff; the Unified and Specified Commands; the Defense Agencies; and the
      DoD Field Activities (hereafter referred to collectively as "the DoD Components").
      2.2. Applies to non-DoD personnel traveling under DOD sponsorship, except members and
      employees of Congress.
      3. POLICY
      It is DOD policy that the number of visits and visitors to overseas areas shall be minimal, and
      be made only when their purpose cannot be satisfied by other means. Visits shall be arranged
      with a minimum requirement on equipment, facilities, time and services of installations, and
      personnel being visited. When practicable, trips to the same general area and in the same
      general period shall be consolidated.
      4.4. The Heads of the DoD Components shall:
      4.4.1. Use the FCG as the official guide governing clearances for overseas travel. They may
      issue supplementary instructions to provide for addresses and internal administrative
      requirements.
      4.4.2. Appoint officials to be responsible for ensuring compliance with the specific clearance
      requirements outlined in the FCG, including those contained in the FCG's General Information
      Booklet.
      4.4.3. Require that clearance of, or notification to, the DoS be accomplished through the OUSD
      (Policy).



                                                      45
DODIG-2012-025


     5. PROCEDURES
     5.1. All proposed visits to overseas areas, other than those to U.S. possessions, by DoD civilian
     officials appointed by the President by and with the advice and consent of the Senate, members
     of the Joint Chiefs of Staff, the Vice Chairman of the Joint Chiefs of Staff, shall be cleared with
     the Executive Secretary of the Department of Defense, through the OUSD (Policy), before
     plans or arrangements are communicated abroad.
     5.2. All travelers not listed in paragraph 5.1., above, must obtain a "theater clearance" from the
     Unified Commander and/or "country clearance" from the U.S. Embassy. The FCG outlines the
     procedures for obtaining these clearances. Requests for clearances shall include the information
     outlined in the General Information Booklet, chapter six, and the individual country sections of
     the FCG.
     5.3. If travel includes a visit to a "special area" (as indicated in the country chapter of the FCG),
     concurrently request DoS clearance through the OUSD (Policy), which shall notify the traveler,
     through appropriate channels, when DoS clearance has been obtained.
     5.4. In some cases, the OUSD (Policy), DoS, and country or theater clearance may not be
     required. However, host-government country clearance usually are required if the traveler visits
     a host-government activity or contractor facility where classified information might be
     discussed. In such cases, special care must be taken to comply with the personnel clearance
     provisions of the FCG and related host-government security requirements. If the FCG is not
     clear in this respect, the applicable U.S. Defense Attaché Office or Office of Defense
     Cooperation should be contacted for additional information on host-government requirements.
     5.5. The detailed foreign travel itineraries of DOD civilian officials appointed by the President
     by and with the advice and consent of the Senate, members of the Joint Chiefs of Staff, and the
     Vice Chairman of the Joint Chiefs of Staff, shall be classified CONFIDENTIAL with
     declassification upon trip completion. Only the composite itinerary that contains the overall
     schedule, including arrival and departure times and places, is classified when associated with
     the DOD official. Necessary coordination and administrative arrangements to develop and
     execute the elements of the itinerary may be handled on an unclassified basis.
     5.6. The DoS shall be notified, through the OUSD (P), of persons planning to travel to countries
     not otherwise requiring State clearance or notification when travel will involve:
     5.6.1. Contacts or meetings with foreign government officials or industry representatives when
     foreign policy will be discussed with these individuals;
     5.6.2. Meetings with information media personnel when matters affecting foreign policy will be
     discussed; or
     5.6.3. Briefings or logistical support from U.S. Embassy or consular personnel.
     5.7. Visits by personnel of U.S. noncryptologic organizations to U.S. cryptologic overseas
     activities must be coordinated in advance with the Director, National Security Agency (NSA),
     or his or her designated area and/or command representative. This does not apply to visits to
     U.S. cryptologic activities involving purely intradepartmental matters of a particular Service.
     Guidance pertaining to visits to foreign cryptologic activities is contained in DoD TS-5105.21-
     M-2 (reference (b)).
     5.8. Occasionally, travel to certain countries or geographical areas may be considered sensitive,
     and additional approvals within the Department of Defense will be required. The USD (Policy)
     shall determine those areas, and prescribe and monitor the additional procedures to be followed.
     5.9. When travel of persons will involve the disclosure or presentation of classified information
     or export controlled unclassified technical data, justification for the travel must include a
     statement that the appropriate disclosure authorization has been approved to comply with DoD
     Directives 5230.11, C-5230.23, 2040.2, or 5230.9 (references (c), (d), (e), and (f)). If the


                                                       46
DODIG-2012-025


      traveler must carry classified material, he or she shall also state that they are aware of
      requirements to protect classified information as outlined in DOD 5200.1-R, Chapter VIII,
      Section 3 (reference (g)). If the traveler is expected to have access to foreign government
      classified information, additional certification may be required by the FCG.
      5.10. When it is necessary for personnel in a travel status to carry classified material while
      performing official duties, the procedures in Chapter VIII, Section 3 of reference (g) shall be
      followed.
      5.11. Theater clearance requests for visits to nuclear weapon storage sites shall be processed as
      required by applicable Unified Command directives.
DODD 4500.56, “DoD Policy on the Use of Government Aircraft and Air Travel,” March 2,
1997. Includes a process for requesting government aircraft and air travel. Provides:
      E2.6. REQUEST FOR USE OF MILAIR BY SENIOR DOD OFFICIALS
      E2.6.1. A written request is required for travel on MilAir. The DOD Component that schedules
      and/or operates the aircraft may prescribe the request format required to satisfy documentation
      and reporting requirements. The amount of information provided by the requester may vary
      depending on the category of authorized use.
      E2.6.1.1. Requests from approved "required use" travelers shall include the following:
      E2.6.1.1.1. Names and titles (or grade and/or rank) of all travelers.
      E2.6.1.1.2. Purpose of travel.
      E2.6.1.1.3. Itinerary, including required departure or arrival times.
      E2.6.1.1.4. Any special travel requirements (i.e., secure communications or others).
      E2.6.1.2. Requests from other official travelers and those requesting approval for "required use"
      travel on a case-by-case basis shall include the following:
      E2.6.1.2.1. Names and titles (or grade and/or rank) of all travelers.
      E2.6.1.2.2. Travelers' Military Department and/or Agency.
      E2.6.1.2.3. Purpose of travel.
      E2.6.1.2.4. Itinerary, including required departure or arrival times, and an explanation as to why
      scheduling requirements cannot be changed to permit the use of commercial air.
      E2.6.1.2.5. Justification for use of MilAir to include cost comparison with commercial service,
      if applicable.
      E2.6.1.2.6. A statement that the travel policy requirements of this Directive have been met.
      E2.6.1.2.7. Signature of the senior traveling official. That signature may not be delegated.
      E2.6.1.3. Requests from any traveler that includes MilAir travel for personal reasons or
      unofficial travel must include the following:
      E2.6.1.3.1. Amount required to be reimbursed to the Government (attach an airline reservation
      printout reflecting the full-coach fare).
      E2.6.1.3.2. A statement of intent to reimburse the Government for the full-coach fare. (Payment
      is made by a personal check payable to the Treasurer of the United States and attached to the
      travel voucher along with a travel office printout showing the full-coach fare.)
      E2.7. DOCUMENTING THE USE OF MILAIR BY SENIOR DOD OFFICIALS
               E2.7.1. The DoD Components shall collect and retain, for 2 years, data on all uses of
               MilAir . . . .


                                                        47
DODIG-2012-025


                E3.2.2. OSA. That is travel aboard aircraft procured and operated by military activities
                to meet high-priority and short-notice mission requirements that cannot be satisfied by
                commercial transportation, common-user airlift, or other organic airlift. OSA aircraft
                shall be used in peacetime to provide cost-effective training and seasoning of pilots,
                and for logistics needs to ensure military effectiveness in support of national defense
                policies. DoD Directive 4500.43 (reference (h)) provides OSA policy guidance,
                definitions, and responsibilities.
                E3.2.3. SAM. That is travel aboard specially configured aircraft assigned to the 89th
                Airlift Wing used to support only the most important U.S. interest missions and DoD
                missions where other airlift do not provide the timeliness, security, or communications
                capability required. Senior officials identified as ―DV Code 2 or 3‖ are eligible to
                request SAM travel.
DODD 5122.8, “Use of Military Carriers for Public Affairs Purposes,” December 13, 1963,
certified current as of November 25, 2003
       1. PURPOSE
       The purpose of this Directive is to designate the authority for approving travel in and use of
       military carriers for public affairs purposes.
       3. APPLICABILITY AND SCOPE
       In consonance with the public information responsibilities outlined in reference (a), the
       Assistant Secretary of Defense (Public Affairs) is the principal staff assistant to the Secretary of
       Defense for approving the use of military carriers for public affairs purposes with such
       delegations of authority as may be announced.
       4. POLICY
       It is the policy of the Department of Defense that the provision of sea, land, or air transportation
       in support of approved public affairs programs shall be provided on an economical basis for the
       activities of the Department of Defense. Such Instructions governing the travel in and use of
       military carriers as the Assistant Secretary of Defense (Public Affairs) may issue will:
       4.1. Consider his responsibilities for directing the public affairs programs of the Department of
       Defense and the information necessary to effect this Directive.
       4.2. Determine the scope of interest of the public affairs program involved and the contribution
       it can provide to the public and to the defense effort.
       4.3. Provide for prudent utilization of resources.
       4.4. Establish that the public affairs objective to be met transcends any direct or implied
       competition with commercial transportation facilities.
       4.5. Delegate to the Secretaries of the Military Departments and to the Commanders of the
       Unified and Specified Commands these authorities for public affairs travel and transportation
       that will not adversely affect his responsibilities under reference (a).
       4.6. Insure that the use of military carriers for public affairs purposes complies with
       transportation policies promulgated by the Office of the Secretary of Defense.
DODD 5410.18, “Public Affairs Community Relations Policy,” November 20, 2001
(Certified Current as of May 30, 2007). Guidance on funding community relations activities.
Paragraph 4.9.2.5 describes such events as being in the national interest or in the professional,
scientific, or technical interest of a DOD component or element, when approved by ASD (PA) or
a Combatant Commander.



                                                        48
DODIG-2012-025


DODI 5435.2, “Delegation of Authority to Approve Travel In and Use of Military Carriers
for Public Affairs Purposes,” April 25, 1975. The provisions of this Instruction apply to the
Military Departments, the Organization of the Joint Chiefs of Staff, the Unified and Specified
Commands, and the Office of the Secretary of Defense (hereinafter referred to as ―DOD
Components‖); and to the following types of public affairs travel involving the use of military
carriers:
       2.1. Travel of bona fide representatives of information media individually or in groups in
       connection with assignments to cover military events, press tours, visits to military installations,
       military exercises, or military operations.
       2.2. Invitational or other authorized travel or transportation in support of approved public affairs
       programs, including community relations programs, tours, or conferences in which a DOD
       Component is either a sponsor or a participant.
Includes the following definitions:
       3.1. Travel or transportation for public affairs purposes is defined as any travel or transportation
       of individuals, groups, or materiel, undertaken as a result of a request to or an invitation from,
       and authorized by, competent authority in the Department of Defense in the interest of adding
       to the public understanding of Department of Defense activities. It includes travel or
       transportation involving individuals or things, military or civilian, Government or non-
       Government, United States or foreign. It may be reimbursable.
       3.2. Local travel is defined as that travel which can be considered local both as to distance from
       the military headquarters or installation concerned and as to the scope of interest in the public
       affairs programs involved.
       3.3. Nonlocal travel is defined as travel conducted in support of a public affairs program which
       affects more than one Military Department, geographic area, or major command, the scope of
       interest of such being of primary concern to a higher headquarters than the military
       headquarters or installation desiring the travel.
       4.3 Nonlocal Travel. Authority to approve the use of military carriers for nonlocal travel, as
       previously defined, for those other than news media representatives may be exercised by:
           4.3.1. The Chairman, Joint Chiefs of Staff.
            4.3.2. The Commanders of Unified and Specified Commands for public affairs programs
       pertinent to their command responsibility. These commanders will not redelegate this authority
       below their Component Commanders.
           4.3.3. The Secretaries of the Military Departments for public affairs programs other than
       those of Unified or Specified Commands. Redelegation of this authority, if deemed appropriate
       by the Secretaries, will be no lower than Commanders of Army Areas, Naval Districts, and
       major Air Commands. When units or areas of the Joint Command structure are involved,
       coordination will be effected with the appropriate commander in chief and the Assistant
       Secretary of Defense (Public Affairs). It is recognized that some public affairs programs
       generated under this delegation will involve both non-news media representatives and
       news media representatives. In these cases, the provisions of subsection 4.4., below, will
       apply as it concerns representatives of news media. (Emphasis Added)
       4.4. News Media Representatives. The Secretaries of the Military Departments and the
       Commanders of the Unified and Specified Commands will obtain the approval of the Assistant
       Secretary of Defense (Public Affairs) before authorizing nonlocal travel, as defined herein,
       involving news media representatives. Such travel will be on a reimbursable basis when DOD
       industrially funded resources are utilized. When other than industrially funded resources are
       utilized the approving authority will determine whether the travel is to be on reimbursable or
       non-reimbursable basis. The Assistant Secretary of Defense (Public Affairs) will determine the

                                                         49
DODIG-2012-025


     Military Department or civilian agency which will provide reimbursement, when appropriate.
     All such travel requested by a Military Department involving an area of interest to a Unified or
     Specified Command will be coordinated with the command concerned by the Assistant
     Secretary of Defense (Public Affairs) prior to approval.
     5.1. Travel or transportation authorized by any element of the Department of Defense for public
     affairs purposes will reflect the following considerations:
              5.1.1. The Armed Forces shall not compete with commercial sea, air, or land
              transportation when that transportation exists, is adequate, and public affairs objectives
              of the travel may be accomplished through its use.
              5.1.2. In order to effect maximum utilization of travel or transportation requested for
              public affairs purposes, the approving authority will coordinate each request with any
              other Department, Command or Agency which may have a valid interest in the
              proposed public affairs activity concerned.
              5.1.3. Prior to approval, travel or transportation for public affairs purposes must be
              determined to be primarily in the interest of the Department of Defense.
     5.2. Travel will be approved by the Assistant Secretary of Defense (Public Affairs) for bona
     fide news media representatives only when one or more of the following considerations apply:
              5.2.1. The military travel portion itself is an integral part of the story or stories to be
              covered by news media representatives, as in air evacuation, maneuvers, or the
              movement of troops. In such cases, the transportation will be limited to the extent and
              duration of the assignment requiring military travel and will not be used solely for
              point-to-point transportation.
              5.2.2. The proposed news coverage is of a major emergency nature and coverage will
              be impaired or delayed, to the serious detriment of the interests of the Department of
              Defense if military transportation is not provided.
              5.2.3. The travel is a matter of special interest to the Military Department or Command
              involved and is a part of an approved public affairs project.
     6.1. No agency of the Department of Defense will commit Government transportation for public
     affairs purposes until the request has been coordinated and approved as provided by these
     Instructions.
     6.2. If a Military Department or a Unified or Specified Command, acting under the provisions
     of this Instruction, disapproves a request for travel or transportation for nonlocal public affairs
     purposes, including travel of news media representatives, it will notify the Assistant Secretary
     of Defense (Public Affairs) by the most expeditious means.
     6.3. All requests for travel or transportation for public affairs purposes will be submitted to the
     appropriate approving authority, as defined herein, through the appropriate command channels.
     In cases justified under the provisions of paragraph 6.2. above, involving nonlocal travel of
     news media representatives, the requests will be submitted by the most expeditious means,
     including telephone, to the Assistant Secretary of Defense (Public Affairs). Every effort will be
     made to expedite these requests. Justification will establish both the public affairs purpose to be
     served and the necessity of the use of military carriers within the policies of this Instruction.
     6.4. Orders covering transportation approved as indicated above will be issued by the Military
     Department or other Agency having primary interest. Copies of such orders for each person
     involved will be furnished the Office of the Assistant Secretary of Defense (Public Affairs).

Contractor Affiliation(s)


                                                      50
DODIG-2012-025


5 C.F.R. §2641.201 Permanent restriction on any former employee’s representations to
United States concerning particular matter in which the employee participated personally
and substantially.
      (a) Basic prohibition of 18 U.S.C. 207(a)(1). No former employee shall knowingly, with the
      intent to influence, make any communication to or appearance before an employee of the
      United States on behalf of any other person in connection with a particular matter involving a
      specific party or parties, in which he participated personally and substantially as an employee,
      and in which the United States is a party or has a direct and substantial interest.
5 C.F.R. §2641.202 Two-year restriction on any former employee’s representations to
United States concerning particular matter for which the employee had official
responsibility.
      (a) Basic prohibition of 18 U.S.C. 207(a)(2). For two years after his Government service
      terminates, no former employee shall knowingly, with the intent to influence, make any
      communication to or appearance before an employee of the United States on behalf of any other
      person in connection with a particular matter involving a specific party or parties, in which the
      United States is a party or has a direct and substantial interest, and which such person knows or
      reasonably should know was actually pending under his official responsibility within the one-
      year period prior to the termination of his Government service.
5 C.F.R. §2641.204 One-year restriction on any former senior employee’s representations
to former agency concerning any matter, regardless of prior involvement.
       (a) Basic prohibition of 18 U.S.C. 207(c). For one year after his service in a senior position
           terminates, no former senior employee may knowingly, with the intent to influence, make
           any communication to or appearance before an employee of an agency in which he served
           in any capacity within the one-year period prior to his termination from a senior position,
           if that communication or appearance is made on behalf of any other person in connection
           with any matter on which the former senior employee seeks official action by any
           employee of such agency. An individual who served in a ―very senior employee‖ position
           is subject to the broader two-year restriction set forth in 18 U.S.C. 207(d) in lieu of that set
           forth in section 207(c). See §2641.205.




                                                        51
DODIG-2012-025



Appendix C. Participating RMAs
                                                                   Defense
                                                     Media
                         Rank/           Inter-                   Contractor    RMA Trips
         Name                                       Affiliation
                         Service         viewed                   Affiliation    Attended

    1 Allard,            COL (Ret)/        X            X                           1
         C. Kenneth      USA
    2    Altenburg, Jr   MG (Ret)/         X            X
         John D          USA
    3    Babbin,         DUSD              X            X                           3
         Jed L
    4    Bevelacqua,     MAJ/              X            X             X
         Robert S        USA
    5    Blair,          ADM (Ret)/                     X             X
         Dennis C        USN
    6    Brookes,        CDR (Ret)/                     X
         Peter T         USNR
    7    Campbell,       Lt Gen            X                          X             1
         Frank B         (Ret)/USAF
    8    Carafano,       LTC (Ret)/                     X             X             1
         James J         USA
    9    Carstens,       LTC (Ret)/
         Roger D         USA
    10   Christman,      LTG (Ret)/        X            X
         Daniel W        USA
    11   Clark,          GEN (Ret)/        X            X
         Wesley K*       USA
    12   Cowan,          LtCol (Ret)/      X            X             X             3
         William V       USMC
    13   Coyne,          CAPT (Ret)/       X
         John J          USN
    14   Cucullu,        LTC (Ret)/        X            X                           1
         Gordon C        USA
    15   DeLong,         LtGen (Ret)/                   X             X
         Michael P       USMC
    16   Dillon,         MAJ (Ret)/        X            X                           1
         Dana R          USA
    17   Downing,        GEN (Ret)/                     X             X             1
         Wayne A         USA
    18   Eads,           LTC (Ret)/        X            X             X             1
         Timur J*        USA
    19   Finkelstein,    LTC (Ret)/        X                          X
         David M*        USA
    20   Fogleman,       Gen (Ret)/        X            X             X             1
         Ronald R        USAF
    21   Francona,       Lt Col (Ret)/     X            X
         Richard C       USAF


                                               52
DODIG-2012-025


                                                             Defense
                                               Media
                      Rank/        Inter-                   Contractor    RMA Trips
         Name                                 Affiliation
                      Service      viewed                   Affiliation    Attended

    22 Garner,        LTG (Ret)/     X                          X
         Jay M*       USA
    23   Garrett,     Col (Ret)/     X            X                           3
         John C       USMC
    24   Glosson,     Lt Gen                      X
         Buster C     (Ret)/USAF
    25   Grange,      BG (Ret)/      X            X             X
         David L      USA
    26   Greer,       CSM (Ret)/     X            X             X             4
         Steven J     USA
    27   Haake,       MG (Ret)/                   X
         Timothy M    USA
    28   Harrison,    Maj Gen        X                          X
         George B*†   (Ret)/USAF
    29   Hayward,     ADM (Ret)/     X
         Thomas B*    USN
    30   Horner,      Gen (Ret)/                  X             X
         Charles A    USAF
    31   Jackson,     MG (Ret)/      X                          X
         James T*     USA
    32   Jacobs,      COL (Ret)/     X            X                           1
         Jack H       USA
    33   Jeremiah,    ADM (Ret)/     X                          X
         David E      USN
    34   Joulwan,     GEN (Ret)/     X            X             X
         George A*    USA
    35   Kernan,      GEN (Ret)/     X            X             X
         William F    USA
    36   Lackey,      COL (Ret)/     X            X                           2
         Glenn G      USA
    37   Lang,        COL (Ret)/                  X
         W. Patrick   USA
    38   Larson,      ADM (Ret)/     X                          X
         Charles R*   USN
    39   Lopez,       ADM (Ret)/     X                          X
         Thomas J     USN
    40   Maginnis,    LTC (Ret)/     X            X             X             4
         Robert L     USA
    41   Marfiak,     RADM           X            X
         Thomas F*†   (Ret)/USN
    42   Marks,       MG (Ret)/      X            X             X
         James A*     USA
    43   McCaffrey,   GEN (Ret)/     X            X             X
         Barry R*     USA


                                         53
DODIG-2012-025


                                                                  Defense
                                                    Media
                          Rank/         Inter-                   Contractor    RMA Trips
         Name                                      Affiliation
                          Service       viewed                   Affiliation    Attended

    44 McCausland,        COL (Ret)/      X            X             X             4
         Dr. Jeffrey D    USA
    45   McInerney,       Lt Gen          X            X             X             3
         Thomas G         (Ret)/USAF
    46   Meigs,           GEN (Ret)/      X            X             X             2
         Montgomery       USA
         C*
    47   Messing, Jr      MAJ (Ret)/      X            X                           2
         Frederick A      USA
         "Andy"
    48   Meyer,           GEN (Ret)/      X                          X
         Edward C*        USA
    49   Molino,          LTC (Ret)/      X
         John M*          USA
    50   Moorman, Jr      Gen (Ret)/      X                          X
         Thomas S*        USAF
    51   Nardotti, Jr     MG (Ret)/       X            X                           1
         Michael J        USA
    52   Nash,            CAPT (Ret)/     X            X             X             3
         Charles T        USN
    53   Nash,            MG (Ret)/       X            X             X             2
         William L*       USA
    54   Noonan,          LTG (Ret)/      X                          X
         Robert W         USA
    55   Otis,            GEN (Ret)/      X                          X
         Glenn K*         USA
    56   Prueher,         ADM (Ret)/      X
         Joseph W         USN
    57   Ralston,         Gen (Ret)/      X            X             X
         Joseph W*        USAF
    58   Rokke,           Lt Gen          X                                        1
         Ervin J          (Ret)/USAF
    59   Scales, Jr       MG (Ret)/       X            X             X             2
         Robert H*        USA
    60   Shalikashvili,   GEN (Ret)/                                 X
         John M           USA
    61   Shelton,         GEN (Ret)/      X            X             X
         Henry H*†        USA
    62   Shepperd,        Maj Gen         X            X             X             4
         Donald W         (Ret)/USAF
    63   Sherwood,        Cpl             X            X                           2
         Carlton A        USMC
    64   Simmons,         CIA (Ret)       X            X                           2
         Wayne S*


                                              54
DODIG-2012-025


                                                                           Defense
                                                          Media
                           Rank/              Inter-                      Contractor    RMA Trips
         Name                                            Affiliation
                           Service            viewed                      Affiliation    Attended

    65 Smith,              Maj Gen              X             X
         Perry M           (Ret)/USAF
    66   Strong,           CAPT (Ret)/          X             X               X             1
         Martin L          USN
    67   Timberg,          Capt (Ret)/          X             X
         Robert R*         USMC
    68   Trainor,          LtGen (Ret)/         X             X
         Bernard E         USMC
    69   Vallely,          MG (Ret)/            X             X                             3
         Paul E            USA
    70   Warden III,       Col (Ret)/           X             X               X             1
         John A            USAF
    71   Welch,            Gen (Ret)/           X                             X
         Larry D           USAF
    72   West,             ASD                  X             X                             2
         Francis J
         "Bing"
    73   Wilhelm,          Gen (Ret)/           X                             X
         Charles E         USMC
    74   Wilkerson,        MajGen               X             X               X
         Thomas L*         (Ret)/USMC
         Total/Count                            63            53              43

  * RMAs who described they were not aware they were in a program (24).
  † RMAs who stated they attended no RMA outreach activities (3).




                                                    55
DoDIG-2012-025




Appendix D. Senior DOD Staff Involved in RMA
Outreach
    Name       Rank/   Organization                Title and Position                            When In the
               Grade                                                                              Position
Barber,       SES      OASD (PA)      Deputy ASD(PA) for Internal Communications            Nov ‗03 - Oct ‗08
Allison                               & (dual hat) Acting Deputy ASD(PA) for Public
                                      Liaison                                               May ‗04 – Oct ‗08
                                      Special Assistant to ASD(PA)                          May ‗01 – Nov ‗03
Casey,        GEN      USCENTCOM      Commanding General,                                   Jul ‗04 – Feb ‗07
George        (USA)                   Multi-National Force - Iraq
Chiarelli,    LTG      USCENTCOM      Commanding General, Multi-National Corps -            Nov ‗05 - Dec ‗06
Peter         (USA)                   Iraq
Clarke,       SES      OASD (PA)      ASD(PA)                                               May ‗01 – Jun ‗03
Victoria
Conway,       GEN      JCS            Director of Operations (J-3), Joint Staff (Briefer)   2004 – Nov ‗06
James T       (USMC)
Crouch,       SES      OUSDP          ASD (International Security Policy) (Briefer)         Aug ‘01 - Oct ‗03
J.D.
Dell 'Orto,   SES      OGC            Principal Deputy General Counsel, DOD                 Jun ‗00 – Mar ‗09
Daniel                                (Briefer)
Di Rita,      SES      OASD (PA)      Acting ASD(PA)*                                       Jun ‘03 - May ‗06
Lawrence               OSD            Special Assistant to SECDEF                           Feb ‗01 – Jun ‗03

Hadley,       SES      White House    National Security Advisor (Received Report)           Jan ‘05 – Jan ‗09
Stephen
Hastings,     SES      OASD (PA)      Principal Deputy ASD(PA)                              Mar ‗08 – Mar ‗09
Robert T
Haynes,       SES      OGC            General Counsel, DOD                                  May ‗01 – Mar ‗08
William J
Lute,         LTG      White House    Assistant to the President - Deputy National          May 07 – present
Douglas       (USA)                   Security Advisor for Iraq and Afghanistan
                                      (Briefer)
                                      Director of Operations, J-3, JCS                      Sep 06 - May 07
                                      Director of Operations, J-3, CENTCOM                  Jun 04 - Sep 06
Myers,        GEN      JCS            Chairman, Joint Chiefs of Staff (Briefer)             Oct ‗01 – Sep ‗05
Richard       (USAF)
Ney,          SES      OGC            Deputy General Counsel for Legal Counsel,             Nov ‗06 – Jan ‗08
Paul                                  DOD (Briefer)
Odierno,      LTG      JCS            Commanding General, III Corps and                     Dec ‗06 – Feb ‗08
Raymond       (USA)                   Commander, Multi-National Corps-Iraq (Briefer)
Pace,         GEN      JCS            Chairman, Joint Chiefs of Staff                       Sep ‗05 – Oct ‗07
Peter         (USMC)                  Vice Chairman, Joint Chiefs of Staff (Briefer)        Sep ‗01 – Aug ‗05

Ruff,         SES      OASD (PA)      Special Assistant to DEPSECDEF;                       Feb ‗04 – Feb ‗07
Richard                               Deputy ASD(PA); Press Secretary
Rumsfeld,     ES       DOD            Secretary of Defense                                  Jan ‗01 - Dec ‗06
Donald
Schwartz,     LTG      JCS            Director of Operations (J-3),                         Sep ‗02 – Aug ‗05
Norton        (USAF)                  Joint Staff (Briefer)
Smith,        SES      OASD (PA)      ASD(PA)                                               Jan ‗06 – Oct ‗07
Dorrance
Sorenson,     MG       ASA (ALT)      Deputy for Acquisition and Systems                    Jan ‗04 – Jun ‗07
Jeffrey       (USA)                   Management, Office of Assistant Secretary of the
                                      Army (Acquisition, Logistics and Technology)
Thompson,     SES      OASD (PA)      Deputy ASD(PA) for Iraq Communications and            Apr ‗06 – Mar ‗07
Jonathan                              Global War on Terror




                                                  56
DODIG-2012-025


    Name         Rank/      Organization                 Title and Position                     When In the
                 Grade                                                                           Position
Whitman,       SES          OASD (PA)        Public Affairs Specialist                      ~1995 – Aug ‗97
Bryan                                        Deputy Director for Press Operations           Aug ‘97 – May ‗02
                                             Deputy ASD(PA) for Media Operations            May ‗02 – Apr ‗10
                                             Principal Deputy ASD(PA)                       Apr ‗10 - present
Willcox,       SES          OASD             Deputy ASD(PA) for Issues and Strategy         ~2001 – Oct ‗04
Christopher                                  Management
Yurechko,      SES          DIA              Defense Intelligence Officer for Information   Oct ‗98 – May ‗04
John                                         Operations (IO), Defense Intelligence Agency
*    Prior to being appointed as Special Assistant, Mr. Di Rita managed OASD (Legislative Affairs). After
     Mr. Dorrance Smith became ASD(PA) in 2006, Mr. Di Rita served as ―Counselor to the Department‖ until
     he departed for the private sector in late 2006.
~    Denotes ―Estimated‖




                                                        57
DODIG-2012-025




                 58
DODIG-2012-025



Assistant Secretary of Defense (Public Affairs)
Comments




                        59
DoDIG-2012-025




                 60
